<html>
<title> - THE SUPERSIZING OF AMERICA: THE FEDERAL GOVERNMENT'S ROLE IN COMBATING OBESITY AND PROMOTING HEALTHY LIVING</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





THE SUPERSIZING OF AMERICA: THE FEDERAL GOVERNMENT'S ROLE IN COMBATING 
                  OBESITY AND PROMOTING HEALTHY LIVING

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 3, 2004

                               __________

                           Serial No. 108-201

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform



                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
95-914                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
NATHAN DEAL, Georgia                 C.A. ``DUTCH'' RUPPERSBERGER, 
CANDICE S. MILLER, Michigan              Maryland
TIM MURPHY, Pennsylvania             ELEANOR HOLMES NORTON, District of 
MICHAEL R. TURNER, Ohio                  Columbia
JOHN R. CARTER, Texas                JIM COOPER, Tennessee
MARSHA BLACKBURN, Tennessee          ------ ------
PATRICK J. TIBERI, Ohio                          ------
KATHERINE HARRIS, Florida            BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 3, 2004.....................................     1
Statement of:
    Agatston, Dr. Arthur, cardiologist and author, the South 
      Beach Diet; Dr. G. Harvey Anderson, professor, Department 
      of Nutritional Sciences, University of Toronto; Dr. Susan 
      Finn, chair, American Council for Fitness and Nutrition; 
      and Bruce Silverglade, director, legal affairs, Center for 
      Science in the Public Interest.............................    95
    Crawford, Dr. Lester M., Acting Commissioner, Food and Drug 
      Administration; Lynn Swann, chairman, President's Council 
      on Physical Fitness and Sports; and Eric Hentges, Executive 
      Director, U.S. Department of Agriculture, Center for 
      Nutrition Policy and Promotion.............................    15
    Trager, Dr. Stuart, chairman, Atkins Physicians Council......    71
Letters, statements, etc., submitted for the record by:
    Agatston, Dr. Arthur, cardiologist and author, the South 
      Beach Diet, prepared statement of..........................    98
    Anderson, Dr. G. Harvey, professor, Department of Nutritional 
      Sciences, University of Toronto, prepared statement of.....   107
    Crawford, Dr. Lester M., Acting Commissioner, Food and Drug 
      Administration, prepared statement of......................    17
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............   155
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia, prepared statement of...................     4
    Finn, Dr. Susan, chair, American Council for Fitness and 
      Nutrition, prepared statement of...........................   112
    Hentges, Eric, Executive Director, U.S. Department of 
      Agriculture, Center for Nutrition Policy and Promotion, 
      prepared statement of......................................    56
    Putnam, Hon. Adam H., a Representative in Congress from the 
      State of Florida, prepared statement of....................   157
    Silverglade, Bruce, director, legal affairs, Center for 
      Science in the Public Interest:
        Information on global strategy on diet, physical activity 
          and health.............................................   123
        Prepared statement of....................................   144
    Swann, Lynn, chairman, President's Council on Physical 
      Fitness and Sports, prepared statement of..................    46
    Towns, Hon. Edolphus, a Representative in Congress from the 
      State of New York, information concerning children's diets.    68
    Trager, Dr. Stuart, chairman, Atkins Physicians Council, 
      prepared statement of......................................    74
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, prepared statement of.................     9

 
THE SUPERSIZING OF AMERICA: THE FEDERAL GOVERNMENT'S ROLE IN COMBATING 
                  OBESITY AND PROMOTING HEALTHY LIVING

                              ----------                              


                         THURSDAY, JUNE 3, 2004

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 11:37 a.m., in 
room 2154, Rayburn House Office Building, Hon. Tom Davis of 
Virginia (chairman of the committee) presiding.
    Present: Representatives Tom Davis of Virginia, Shays, Ros-
Lehtinen, Ose, Lewis, Putnam, Schrock, Duncan, Murphy, Carter, 
Blackburn, Harris, Waxman, Towns, Maloney, Cummings, Tierney, 
Clay, Watson, Van Hollen, and Ruppersberger.
    Staff present: David Marin, deputy staff director and 
communications director; Keith Ausbrook, chief counsel; Ellen 
Brown, legislative director and senior policy counsel; Anne 
Marie Turner, counsel; Robert Borden, counsel and 
parliamentarian; Rob White, press secretary; Drew Crockett, 
deputy director of communications; Mason Alinger, Brian Stout, 
Susie Schulte, Michael Layman, and Shalley Kim, professional 
staff members; Teresa Austin, chief clerk; Brien Beattie, 
deputy clerk; Allyson Blandford, office manager; Leneal Scott, 
computer systems manager; Phil Barnett, minority staff 
director; Kristin Amerling, minority deputy chief counsel; Josh 
Sharfstein, minority professional staff member; Earley Green, 
minority chief clerk; Jean Gosa, minority assistant clerk; and 
Naomi Seiler, minority staff assistant.
    Chairman Tom Davis. I want to welcome everyone to today's 
hearing. I would note a quorum is here.
    The hearing is on the Federal Government's role in fighting 
obesity in the United States. Today we will examine the 
increasing threat obesity poses to all Americans, what 
government is going to do to help people lead healthier lives 
and how the government can provide greater health leadership 
for the public.
    As obesity will soon pass smoking as the No. 1 avoidable 
cause of death among Americans, a reexamination of our national 
health policy is more than warranted. Mr. Waxman, it took us a 
long time to get together on a smoking bill and FDA regulation. 
Maybe we can work on an obesity bill once we get that through.
    The facts are, quite frankly, frightening. Obesity-related 
disease kills 400,000 Americans each year. Medical treatment of 
obesity and its more than two dozen associated conditions costs 
nearly $100 billion annually according to some estimates with 
about half paid by taxpayers through Medicare and Medicaid.
    In 2001, obesity was a primary factor in five of the six 
leading causes of death among Americans: heart disease, cancer, 
stroke, Chronic Obstructive Pulmonary disease and diabetes. 
One-third of all Americans are considered obese; another third 
are overweight and the trend line is only getting worse. 
Clearly, all Americans aren't eating wisely, they are not 
exercising enough, but that is too simple. The root causes of 
obesity are far too many in number to adequately address here 
today. We are a Nation consumed by work, spending long hours 
behind desks, favoring fast food meals and cramming in exercise 
when we are able, if at all.
    While heredity largely determines how a person burns 
calories and retains fat, the person's behavior unquestionably 
has a greater impact on weight gain. In the year 2000, women 
consumed 335 more calories per day than they ate in 1971. Men 
eat 168 more calories today than they did 30 years ago. At the 
same time, nearly half of all American adults reported they 
engaged in no physical activity at all.
    During its meeting last week, the U.S. Dietary Guidelines 
Advisory Committee declared that most adults need 30 minutes of 
moderate physical activity nearly every day. Some require 60 
minutes a day to avoid weight gain. Yet, while there may be 
consensus that all Americans should be more physically active 
and make better eating decisions, there are numerous and 
conflicting views on how to reach those goals.
    People are confused. Should they follow the same food 
pyramid we all learned in school a long time ago? Is the answer 
a low carb or no carb diet? How much daily exercise is enough 
to make a difference? Today's hearing will focus on how the 
Government should and perhaps should not respond to the obesity 
epidemic. It is especially timely because several executive 
branch agencies and departments are reassessing their roles in 
the fight against obesity. For example, the Department of 
Health and Human Services and the Department of Agriculture are 
working together on revisions to the Federal Dietary Guidelines 
and its well known visual aid, the Food Pyramid.
    The Food and Drug Administration's Obesity Working Group 
released a report entitled, ``Calories Count,'' to reexamine 
FDA's responsibilities for reducing obesity. Also, HHS is 
overseeing the President's ``Healthier U.S.'' Initiative to 
emphasize the importance of physical activity, a nutritious 
diet and making smart health choices.
    All of these programs are thoughtful and well intentioned 
steps in the fight against obesity but as officials at all 
levels of Government contemplate what message to convey to an 
increasingly overweight U.S. population and how to convey it, 
the questions we want to ask today are many and complex. What 
should Government's role be in fighting obesity? If we agree 
the Government should have a role in advocating healthy living, 
what should that role look like? To what degree should we act 
and at what cost to our pocketbooks and quality of life? Some 
favor significantly enhancing Federal regulation to food, diet 
and consumer choice. Proposals ranging from the ``Twinkie tax'' 
to federally mandated labeling of restaurant menus begs a 
larger debate on the appropriate role of Government in our 
lives.
    The question becomes, how do we reconcile the need for 
Government to participate in the campaign against obesity 
without implying that Americans should be able to make 
decisions about what to eat and drink on their own? To help 
answer these questions, we have two panels of distinguished 
witnesses from the fields of Government, academia, science and 
law.
    I look forward to our discussion today and I again want to 
welcome our witnesses and their important testimony.
    [The prepared statement of Chairman Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T5914.001
    
    [GRAPHIC] [TIFF OMITTED] T5914.002
    
    Chairman Tom Davis. I would ask unanimous consent that the 
written statement of Marshall Manson, vice president of public 
affairs, Center for Individual Freedom, be submitted for the 
record. Without objection, so ordered.
    I would now yield to Mr. Waxman for an opening statement.
    Mr. Waxman. Thank you, Mr. Chairman, for holding this 
hearing on obesity today.
    Obesity rates in the United States and abroad are rising at 
an alarming rate and a key question is what can the Government 
do to fight this epidemic? I believe the Government's role is 
to create opportunities for individuals and communities to 
address obesity. Americans need to access meaningful 
nutritional information about foods and effective messages 
about how to maintain healthy weight. Communities need safe 
places to exercise, inviting places to walk and recreational 
opportunities so that the young and old can be active.
    Ultimately, of course, the decisions are going to be up to 
the individuals and communities, but let us get as much correct 
information to people as possible. That is why I was pleased to 
have been the author of the ``Nutrition Labeling and Education 
Act,'' which provides the ingredient labeling information on 
every food product available for sale that tells people about 
calories, carbohydrates, cholesterol and other ingredients.
    Many public policies on obesity make a difference. For 
example, HHS established the Steps Cooperative Agreement 
Program to fund community-based programs that have been 
effective in controlling chronic illnesses associated with 
obesity. There are other cases, however, where Government, 
especially under the Bush administration, where the priorities 
seem to be promoting the interests of the food industry over 
the protection of the public health. I want to set out some 
examples of that.
    On the food labeling bill that I authored, the ``Nutrition 
Labeling and Education Act,'' the law provided that claims 
couldn't be made on food products about protecting people 
against disease unless there was a clear scientific consensus. 
The FDA now has reinterpreted the law and decided that they are 
not going to force this legal requirement about a significant 
scientific agreement before the companies can make the health 
claims about foods. They are going to let the companies go out 
and make these claims because they now know they won't be 
called to task by the FDA.
    In one of the first decisions under this new policy, the 
FDA announced it would let companies claim that ``Supportive 
but not conclusive research shows that eating 1.5 ounces per 
day of walnuts as part of a low saturated fat and low 
cholesterol diet and not resulting in increased caloric intake, 
may reduce the risk of coronary heart disease.'' I don't know 
what that means. There may be experts here today who can 
understand what this message means in just one reading but for 
the rest of us, it is quite complex. Maybe what they expect the 
bottom line to be is that people should think eating walnuts 
may prevent heart disease. That conclusion doesn't have 
scientific agreement behind it and it may be wrong.
    The FDA found all the studies submitted to support the 
claim to be either irrelevant or of poor to moderate scientific 
quality and the FDA's independent reviewers agreed it is 
uncertain from the publicly available scientific evidence 
increasing consumption of walnuts will reduce coronary heart 
disease. So this claim for walnuts may help sell more walnuts. 
The manufacturers and those in the processing of walnuts can 
make some more money but I think it is misleading and confusing 
for consumers and undermines the intent of Congress in terms of 
giving accurate information to consumers.
    There has been a recent policy action on soft drinks that 
also exemplifies this administration's approach. The Department 
of Health and Human Services has repeatedly tried to block the 
World Health Organization from concluding that there is 
evidence linking sugar containing beverages with weight gain. 
This position may please the soft drink manufacturers but it 
certainly contradicts the scientific opinion of the Surgeon 
General, the Centers for Disease Control, the U.S. Department 
of Agriculture as well as the findings of a number of 
scientific studies. In effect, we have the administration 
putting the interest of the soft drink manufacturers over the 
scientific consensus that there is this link.
    On nutrition education, the Department of Agriculture 
decided that public campaigns funded through food stamp 
programs may not be used to convey negative written, visual or 
verbal expressions about any specific foods, beverage or 
commodities. The Department of Agriculture staff has even been 
given the right to review the content of each educational 
campaign to ensure there is no belittlement or derogation of 
food items. This is a Twinkie protection provision that does 
not appear to have any scientific justification. The Department 
of Agriculture appears to be prohibiting States from saying 
anything bad about junk foods, this despite a recent study 
showing that junk foods constitute almost one-third of 
Americans diets.
    What we see, I think, is a troubling patter emerging. When 
the manufacturer wants to make misleading health claims, the 
administration says yes. When public health agencies want to 
educate the public about well established health risks of 
certain foods, the administration says no, don't tell the 
consumers. There is a lot at stake for food companies. As one 
investment report concluded, any restrictions on advertising 
more comprehensible labeling, warnings that clearly highlight 
the risk of overindulgence in snacks, soft drinks and fast 
food, can only be negative for the industries that sell those 
food items.
    However, the purpose of Government is not to protect the 
short term profits of the food industry, it is to support the 
health of individuals and communities. Ultimately, healthy 
eating will provide many opportunities for companies to provide 
and market foods, but we shouldn't try to keep the consumers 
from knowing the facts.
    I hope as we move forward on the battle against obesity, 
that our health agencies will remember that obesity and 
overweight are public health issues with public health 
consequences. People need to be guided by the best science and 
must advance the goal of improving health.
    I thank the witnesses and look forward to hearing what they 
have to say today as we try to think through what to do about 
what some are describing as an epidemic, particularly among our 
children.
    [The prepared statement of Hon. Henry A. Waxman follows:]

    [GRAPHIC] [TIFF OMITTED] T5914.003
    
    [GRAPHIC] [TIFF OMITTED] T5914.004
    
    Chairman Tom Davis. Thank you very much.
    Members will have 10 days to make opening statements. Does 
anyone really wish to make a statement?
    Ms. Ros-Lehtinen. Mr. Chairman.
    Chairman Tom Davis. You have an introduction and I know Mr. 
Murphy has an introduction. You are recognized.
    Ms. Ros-Lehtinen. Thank you so much, Chairman Davis.
    I would like to congratulate you for your outstanding 
leadership for holding this timely hearing and my good friend 
from California, Mr. Waxman, as well.
    I would like to especially thank one panelist for being 
here today because he is one of my congressional constituents. 
That is Dr. Arthur Agatston, right there in the front row. He 
is going to be bringing his expertise to this vital hearing.
    Dr. Agatston will speak on the second panel as you pointed 
out, Mr. Chairman. The Doctor, as all of us know, is the author 
of the best selling book, ``The South Beach Diet,'' the best-
selling liftestyle book that has been on the New York Times 
Bestseller List now for over a year.
    Dr. Agatston brings with him a wealth of experience 
providing the public with information about the connection 
between a good diet, safe weight loss and disease prevention. 
He has authored more than 100 scientific publications as well 
as reviewed for major medical and cardiology journals. He is a 
cardiologist with Mt. Sinai Hospital located in my 
congressional district in Miami Beach.
    As you pointed out, Mr. Chairman, America's obesity problem 
has reached a critical level. Obesity rates have increased 
dramatically over the past two decades and the National Center 
for Health Statistics estimated that 64 percent of American 
adults were considered overweight or obese in the years 1990 
and 2000 when they did the study. The physical and economic 
costs of obesity are astounding. Obesity, as you pointed out, 
Mr. Chairman, will surpass smoking as the leading avoidable 
cause of death among Americans. It has been linked to cause 
diseases such as cancer, heart disease, diabetes, stroke and 
illnesses that account for over two-thirds of all deaths in the 
United States. Since obesity is caused by multiple large scale 
factors, no one solution will adequately help Americans control 
their weight. Nevertheless, the Federal Government is currently 
reexamining many of our health and nutrition policies and I 
commend your committee, Mr. Chairman, for examining these 
critical Government initiatives. It is imperative to assess 
their impact on whether the Federal Government can or should do 
more and I hope we will continue to work together to eradicate 
this disease.
    Thank you again for inviting my congressional constituent, 
Dr. Arthur Agatston, to be a witness here today. He is joined 
by his wonderful powerhouse of a wife as well.
    Thank you.
    Chairman Tom Davis. Thank you very much.
    Mr. Murphy.
    Mr. Murphy. Thank you, Mr. Chairman, for convening this 
hearing on this important aspect of public health and one that 
is really a killer of our children and adults.
    I would like to take a minute to recognize one of the 
witnesses testifying before us, Lynn Swann, chairman of the 
President's Council on Physical Fitness and Sports. Lynn, a 
Pittsburgher now, although originally from Tennessee, I 
believe, and spent some time at a place called USC where he 
became an All-American, we still see as one of the best 
football players the game has ever seen.
    With the Pittsburgh Steelers, No. 88 played in four Super 
Bowl games in 6 years, was named MPV in Super Bowl X and is in 
the Pro Football Hall of Fame. Their Web site says, ``He is 
blessed with gazelle-like speed, fluid movements and a 
tremendous leaping ability which caused him to become a regular 
wide receiver in his second year.''
    However, football is not Lynn's only passion. Lynn also has 
a heart for helping people reach personal milestones 
physically, mentally and emotionally. In addition to promoting 
healthy living through the President's Council on Physical 
Fitness and Sports, Lynn has also been the National Spokesman 
and is on the Board of Directors for the mentoring program, Big 
Brothers/Big Sisters of America. Lynn brings a lot of 
experience to the table. I am glad he is able to be with us 
today to discuss the concerns of obesity and its impact on 
health in America and it is because of this broad range of 
concern, we recognize him as an All-American in every way.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you.
    Mr. Towns.
    Mr. Towns. Thank you very much, Mr. Chairman.
    Let me also thank you first for having the hearing and I 
also thank the witnesses for coming.
    We are here at a very crucial point in the stability of our 
country's health and well-being. It is time to take a very hard 
look at what we plan to do to reverse this terrible trend. Our 
Nation's lack of nutritional conscience is staggering. If we 
don't act now, our children and grandchildren are going to 
continue to eat poorly, exercise less and suffer adverse health 
consequences, resulting in premature death and reduced quality 
of life.
    Americans are suffering from a multitude of preventible 
illnesses that are a direct result of bad eating habits and a 
sedentary lifestyle which can lead to diabetes, heart disease, 
asthma, stroke, gall bladder disease, osteoarthritis, pregnancy 
complications, increased surgical risk, depression and certain 
types of cancer associated with obesity.
    Over 8 million children and teenagers in the United States 
are overweight. Obesity is not just a vanity issue for adults 
and it is time to confront that reality. Children have the 
immediate risk of Type 2 Diabetes, hypertension, orthopedic 
problems and psycho-social implications such as discrimination, 
alienation and bullying. Moreover, obese children and 
adolescents are more likely to become obese adults.
    I direct your attention to a graph on the easel. Mr. 
Chairman, ladies and gentlemen, this I is why we are here 
today. This is embarrassing. This chart shows precisely what we 
are talking about. We owe our children more than this. It is 
bad enough that we as adults are eating this way but our kids 
don't deserve this. Take a long look at the numbers. Over 20 
percent of babies aged 19 to 24 months have never consumed any 
food except for soft drinks, bacon and french fries. That is 
almost unbelievable but ladies and gentlemen, it is true.
    We need to address the economic circumstances affecting 
food choice. Disadvantaged, inner city families are surrounded 
by fast food restaurants and stores carrying snack foods with 
little nutritional value. Young Americans need to be able to 
exercise and play in safe parks and neighborhoods. They need to 
have access to regular physical education and schools that not 
only teach them the R's, but teach them nutrition and healthy 
choices. Employees must implement work site healthy promotion 
programs that allow employees a small amount of time each day 
to participate in physical activity.
    Healthy food needs to be readily accessible to every 
citizen. We cannot afford to wait, Mr. Chairman, for our 
quality of life and for our children, we must act now. Failure 
to do so will result in a Nation too overweight and too sick to 
sustain.
    Thank you again for having this hearing. I think the timing 
is right.
    With that, I yield back.
    Chairman Tom Davis. Thank you.
    Mr. Schrock.
    Mr. Schrock. Thank you, Mr. Chairman.
    I wasn't going to make any comments but I think I will make 
a brief opening statement and then I have a couple comments on 
things I have heard here already.
    The current health debates are clearly focusing on health 
coverage benefits, malpractice and payment levels but one of 
the most important health issues cannot be overlooked and that 
is the actual health of the American people. Obesity in the 
U.S. population has been increasing steadily over the past two 
decades and unfortunately, plays a major role in disability at 
all ages. I am delighted the gazelle and others are here today 
to discuss this with us.
    Until a few minutes ago, I thought I heard everything 
during the business meeting, we were having and some of the 
things I heard President Bush being blamed for I leaned to Mr. 
Putnam and said jokingly, before long, Mr. Bush will be blamed 
for the Civil War. Well, I am not far off because a few minutes 
ago, now he is being blamed for obesity. How ridiculous does 
this get? What about personal responsibility? What about 
families taking control of the eating habits of their families 
and making sure children stay at home at night and eat and that 
dad doesn't stop by a fast food restaurant on the way home and 
pick up junk for them to eat?
    That doesn't mean all fast food is junk because some of 
these people are getting their act together and there are 
healthier things in the fast food restaurants, but it boils 
down to personal responsibility. I go into middle schools and 
high schools and there are ``gedunk machines'', that is what we 
used to call them in the Navy, that is where they can sell 
Cokes or candy bars or chips. That is nonsense if we really 
care about the health of our kids, why are we allowing that to 
happen.
    Frankly, family oversight I think has to factor into this 
very well. My family, my son, my wife and I live in Virginia 
Beach so we each have a South Beach book that we have been 
using and it does work and that is what it is going to take.
    Chairman Tom Davis. South Beach means South Virginia Beach 
where we are from.
    Mr. Schrock. That is right. That is what I thought it meant 
when I bought it.
    Let me tell you something that really baffles me around 
here. There are a lot of young people that work on a lot of 
staffs around here. I think the thing that upsets me more than 
anything else is I see some overweight young staffers in their 
twenties carrying globs of food from the restaurants around 
here and they get on an elevator to go down one floor so they 
can go to their offices and eat it. That is nonsense. We ought 
to lock the elevators and make these folks walk up and down the 
steps, walk and do what they are supposed to do. I know there 
are some members who have cars take them from their offices to 
vote. Let them walk. It is all about personal responsibility.
    It is good we are having this hearing but when Government 
gets involved, it is going to get screwed up. Frankly, I think 
Government ought to keep their hands out of this and make it 
the responsibility of the people who are eating the food and 
their children. This chart that was just handed to us, this is 
outrageous when you think about kids at this age eating bacon, 
hot dogs and sausage. No wonder we have this problem. Frankly, 
it is about personal responsibility and I am very anxious to 
hear what the witnesses say today and maybe what they say here 
today can help the American people get their act together with 
their diet and not Government.
    Thank you.
    Chairman Tom Davis. Thank you.
    We have a great panel here. We have: Dr. Lester M. 
Crawford, Acting Commissioner, Food and Drug Administration; 
Mr. Lynn Swann, already introduced by Mr. Murphy, the chairman 
of the President's Council on Physical Fitness and Sports; Dr. 
Eric Hentges, Executive Director, U.S. Department of 
Agriculture, Center for Nutrition Policy and Promotion. They 
will provide the committee with an overview of the Federal 
Government's initiatives to combat obesity and promote health 
living. Additionally, these witnesses will offer an update on 
the process to revise and modernize the Federal Dietary 
Guidelines and the Food Pyramid.
    [Witnesses sworn.]
    Chairman Tom Davis. Dr. Crawford, I will start with you and 
move straight down.
    When the light in front of you turns orange, it means 4 
minutes are up and you have 1 minute and the red is 5 minutes 
and move to summary after that but we won't hold you strictly 
accountable.
    Thank you.

STATEMENTS OF DR. LESTER M. CRAWFORD, ACTING COMMISSIONER, FOOD 
  AND DRUG ADMINISTRATION; LYNN SWANN, CHAIRMAN, PRESIDENT'S 
   COUNCIL ON PHYSICAL FITNESS AND SPORTS; AND ERIC HENTGES, 
EXECUTIVE DIRECTOR, U.S. DEPARTMENT OF AGRICULTURE, CENTER FOR 
                 NUTRITION POLICY AND PROMOTION

    Dr. Crawford. Thank you very much for having us here. I am 
delighted to be with Dr. Hentges and also Mr. Swann.
    As you know, obesity and weight management has for sometime 
been one of the top public health stories in the media. This 
hearing is extremely timely in providing a forum to raise 
awareness not only of the problem but also of the many 
initiatives of the Federal Government to address this epidemic. 
Today I will cover the Department of Health and Human Services' 
initiatives and programs designed to assist Americans with 
maintaining a healthy weight.
    Obesity has risen at an epidemic rate during the past 20 
years. Nearly two-thirds of adults in the United States are 
overweight and 31 percent are obese according to the Centers 
for Disease Control and Prevention. The prevalence of 
overweight and obesity varies by gender, age, socioeconomic 
status, race and ethnicity. Overweight and obesity are 
associated with increased morbidity and mortality. 
Approximately 400,000 adult deaths in the United States each 
year are attributable to unhealthy dietary habits, coupled with 
physical inactivity.
    The Government's role in combating the obesity epidemic I 
think is as follows: eating a healthy diet and increasing 
physical activity reduces weight which is shown to reduce the 
risk for many chronic diseases. Often small changes such as 
physical activity for 30 minutes a day or consuming 100 fewer 
calories a day can result in large health benefits. However, 
individuals must have the right information to make healthy 
lifestyle choices.
    In June 2002, President Bush launched the healthier U.S. 
initiatives designed to help Americans, especially children, 
live longer, better and healthier lives. HHS Secretary Tommy 
Thompson built on President Bush's Healthier U.S. Initiative to 
create the Steps to a Healthier U.S. Program which provides the 
overall framework for HHS initiatives addressing obesity and 
overweight. These initiatives target a variety of populations 
and include programs in education, communication and outreach, 
intervention, diet and nutrition, physical activity and 
fitness, disease surveillance, research, clinical preventive 
services and therapeutics, and policy and Web-based tools.
    Two major initiatives I would like to highlight today are 
the FDA's Obesity Working Group and NIH's development of an 
Obesity Research Strategic Plan. In August 2003, we at the FDA 
established an Obesity Working Group to determine how the 
agency could address this problem. In March 2004, the FDA 
released its comprehensive report to combat obesity with a 
focus on the message, ``Calories Count.'' The agency's 
proposals are based on the scientific fact that weight control 
is mainly a function of the balance between calories consumed 
and calories expended. For example, the report recommends FDA 
reexamine the food label to determine how the label can better 
assist consumers in making weight management decisions.
    The following items are highlighted. We will consider 
changes to the Nutrition Facts panel that will further 
emphasize the focus on calories. We will encourage food 
manufacturers to revise certain labels as single servings, a 
voluntary action they can already take to help consumers make 
more informed choices about their diet. As an example, earlier 
this week, Kraft Foods reported on a range of initiatives with 
regard to packaging and labeling helping consumers make 
informed choices by adding the amount of calories for total 
packages. We encourage other companies to move in the same 
direction.
    Third is to encourage the use of comparative labeling 
statements to make it easier for consumers to compare different 
types of foods and make healthier substitutions and then 
finally to evaluate the nutrient content claims for the 
carbohydrate content of foods.
    FDA has filed three petitions from manufacturers in March 
of this year and plans to enter into rulemaking to define terms 
such as ``low'' and ``reduced'' so that consumers are armed 
with better and more accurate information. FDA will conduct 
consumer studies this summer and we will publish a document by 
the end of the year.
    Other major recommendations from this working group include 
initiating a Calories County Education Program and encouraging 
restaurants to provide nutrition information to consumers. I 
would like to express appreciation for the work of the National 
Restaurant Association and those restaurants that have acted to 
provide this information at this point.
    Strengthening enforcement activities to ensure the accuracy 
of the information in the nutrition facts panel is another 
item. Revising FDA's 1996 draft guidance for the clinical 
evaluation of weight control drugs and increasing collaboration 
on obesity research are other items.
    With regard to research, the second major initiative, I 
would like to mention the NIH Obesity Research Task Force. As 
the problems of overweight and obesity have grown, the need for 
new action and research has become more evident. In response, 
NIH assembled a task force to identify areas for new research 
across its institutes and in March of this year, the agency 
released the draft of its strategic plan. That plan does the 
following things.
    Research will be stimulated toward preventing and treating 
obesity through lifestyle modification, preventing and treating 
obesity through pharmacologic, surgical and other medical 
approaches, breaking the link between obesity and its 
associated health conditions, and cross-cutting topics such as 
decreasing health disparities and encouraging technology, 
fostering inter-disciplinary research teams, investigative 
training, translational research and education outreach.
    The last area I would like to mention is HHS' efforts to 
work with the international community are continuing. The World 
Health Organization's global strategy on diet, physical 
activity and health holds much promise in the fight against the 
global epidemic of overweight and we support that.
    Mr. Chairman, these are my remarks. I appreciate the time 
very much.
    [The prepared statement of Mr. Crawford follows:]

    [GRAPHIC] [TIFF OMITTED] T5914.005
    
    [GRAPHIC] [TIFF OMITTED] T5914.006
    
    [GRAPHIC] [TIFF OMITTED] T5914.007
    
    [GRAPHIC] [TIFF OMITTED] T5914.008
    
    [GRAPHIC] [TIFF OMITTED] T5914.009
    
    [GRAPHIC] [TIFF OMITTED] T5914.010
    
    [GRAPHIC] [TIFF OMITTED] T5914.011
    
    [GRAPHIC] [TIFF OMITTED] T5914.012
    
    [GRAPHIC] [TIFF OMITTED] T5914.013
    
    [GRAPHIC] [TIFF OMITTED] T5914.014
    
    [GRAPHIC] [TIFF OMITTED] T5914.015
    
    [GRAPHIC] [TIFF OMITTED] T5914.016
    
    [GRAPHIC] [TIFF OMITTED] T5914.017
    
    [GRAPHIC] [TIFF OMITTED] T5914.018
    
    [GRAPHIC] [TIFF OMITTED] T5914.019
    
    [GRAPHIC] [TIFF OMITTED] T5914.020
    
    [GRAPHIC] [TIFF OMITTED] T5914.021
    
    [GRAPHIC] [TIFF OMITTED] T5914.022
    
    [GRAPHIC] [TIFF OMITTED] T5914.023
    
    [GRAPHIC] [TIFF OMITTED] T5914.024
    
    [GRAPHIC] [TIFF OMITTED] T5914.025
    
    [GRAPHIC] [TIFF OMITTED] T5914.026
    
    [GRAPHIC] [TIFF OMITTED] T5914.027
    
    [GRAPHIC] [TIFF OMITTED] T5914.028
    
    [GRAPHIC] [TIFF OMITTED] T5914.029
    
    [GRAPHIC] [TIFF OMITTED] T5914.030
    
    [GRAPHIC] [TIFF OMITTED] T5914.031
    
    Chairman Tom Davis. Thank you very much.
    Mr. Swann, thank you for being with us.
    Mr. Swann. Thank you very much for having me here.
    I would be remiss if I didn't first pay my respects to Ms. 
Blackburn from Tennessee. As I was born in Alcoa, TN, the first 
organized sports team I played on was a Little League baseball 
team in Alcoa.
    Also, Mr. Waxman, having grown up in California, the first 
football team I ever played on was a team called the Peninsula 
Jets and the next year, the San Bruno Rams as I was growing up 
there and graduating from and playing football for the 
University of Southern California before as Mr. Murphy said I 
went to Pennsylvania and there played for the Steelers for 9 
years and having some success.
    Mr. Waxman. Have you lived anywhere a member of this 
committee did not reside?
    Mr. Swann. I should apologize to all members of the 
committee that I defeated their teams. It was a paid job and as 
a professional, I had to do my duty. [Laughter.]
    I would like to say that throughout my life there have 
always been opportunities for physical activity, to be a member 
of a team, to participate, to be out, to walk eight blocks to a 
park and play until the lights went out, to walk to school, to 
ride my bike to school. As we canvas our Nation today, we see 
there are fewer and fewer opportunities for children to 
participate. Yes, the better athletes have a chance to be on 
the varsity football team and basketball team and baseball team 
but my oldest brother, who is a dentist, 5' 6'' and about 135 
pounds, kids do not have the opportunity to do as he did when 
he was in high school which was play on the B or C basketball 
team for those who weren't the biggest, the tallest and the 
most talented but still provide an opportunity for them to 
participate and play and learn from sports and gain the 
benefits.
    We have seen and heard all the information of obesity 
rising in our Nation. We also have probably looked at the 
numbers and where they will head in the next 10 years. The 
numbers are just ugly. They are preventible. The key word when 
we look at obesity and obesity-related illnesses and diseases 
is preventible and they are preventible through activity, 
through more physical activity. We have to now make physical 
activity a priority. It is not an elective in our lives. If we 
are going to establish the well being of a nation, we have to 
establish physical activity as a priority, as well as our 
intellectual and spiritual well being, we have to make sure 
there is a higher level of physical activity so that we can 
grow, focus, concentrate and have the endurance to do the jobs 
we need to do.
    Obesity has come not because people are lazy but because 
for many reasons, our own innovation and advances in technology 
and growth, the Internet, robotics, we don't need that large 
labor force. Parents are concerned about their children's 
safety, so they walk them to school or they drive them to 
school more likely, the kids don't ride their bicycles. There 
are ways around this. There are community organizations that 
have grants that will put their kids together and create safe 
walking paths for them to get to school or riding paths for 
them to ride their bicycles to school. That labor force we no 
longer need is going to have to step up in terms of their own 
individual choices and how they lead a physical, active life.
    The food, the balance is very important. It is all about 
balance. It is not just about physical activity, it is about 
the caloric intake. I did an interview with a nutritionist at 
Virginia Tech. She is the nutritionist for the football team at 
Virginia Tech, so I asked her, how many calories a day do the 
offensive and defensive linemen eat during a football year to 
be physically capable of getting the job done? The bigger guys 
on the team are eating 6,000 calories a day. That is a huge 
amount of food but look at the activity level of these young 
men. One hour a day of weight lifting, a 3-hour football 
practice, walking back and forth across campus to get to 
classes. It is unbelievable. There is a balance there.
    If you are only exercising up to a point or getting the 
kind of activity where you are burning up 2,000 calories a day, 
anything over that means you are going to increase your weight. 
It is an individual responsibility to understand this and if 
Secretary Paige doesn't mind if I stick my toe a little bit in 
his water, if we want our children to understand the proper way 
to eat, the proper way to exercise, then we have to have better 
education on the physical fitness side and that does mean 
physical education. If we are not going to have it in the 
schools, then it is absolutely the priority of our parents, of 
adults to set the better example. Yes, our children learn in 
school but our children learn by example first. If the adults 
aren't taking their kids out for physical activity, then who 
is. If we don't set a better example, then we are all going to 
lose in the end.
    I carry with me a medallion that was given to me by the 
Surgeon General of the Air Force. The back of it says, 
``Execution is the chariot of genius.'' It was written by 
William Blake. We understand what we have to do. Now it is time 
to execute a plan. The plan simply is to get active. You don't 
need the best or the most perfect plan, you just need to get 
going. I would ask that all of you whenever you go home to your 
States and your districts, whenever you are making a speech, as 
a bipartisan issue, if you would recommend to your 
constituency, to your followers, to get out and start 
exercising, every speech you make will go a long way toward 
getting America a little healthier, a little stronger and much 
more active.
    Thank you.
    [The prepared statement of Mr. Swann follows:]

    [GRAPHIC] [TIFF OMITTED] T5914.032
    
    [GRAPHIC] [TIFF OMITTED] T5914.033
    
    [GRAPHIC] [TIFF OMITTED] T5914.034
    
    [GRAPHIC] [TIFF OMITTED] T5914.035
    
    [GRAPHIC] [TIFF OMITTED] T5914.036
    
    [GRAPHIC] [TIFF OMITTED] T5914.037
    
    [GRAPHIC] [TIFF OMITTED] T5914.038
    
    [GRAPHIC] [TIFF OMITTED] T5914.039
    
    Chairman Tom Davis. Thank you very much.
    Dr. Hentges.
    Mr. Hentges. Thank you, Mr. Chairman.
    I am pleased to be here this morning to speak about the 
efforts of the Department of Agriculture to combat overweight 
and obesity. Helping Americans live longer, better and 
healthier lives is a top priority of the President's Healthier 
U.S. Initiative. In support of the President's initiative, we 
at USDA are in the midst of updating the Dietary Guidelines for 
Americans and the Food Guide Pyramid, our current food guided 
system.
    The National Nutrition Monitoring and Related Research Act 
of 1990 requires the Secretaries of Agriculture and Health and 
Human Services to jointly publish the Dietary Guidelines for 
Americans at least every 5 years. The guidelines form Federal 
nutrition policy, they set standards for nutrition assistance 
programs, they guide nutrition education programs and provide 
dietary advice for consumers.
    Through the Dietary Guidelines, the Federal Government 
speaks with one voice on nutrition issues. The Dietary 
Guidelines Advisory Committee, comprised of 13 nationally 
recognized experts, were appointed last year to review the 
latest scientific and medical research. We expect to receive 
the committee's report later this summer. From this report, 
USDA and the Department of Health and Human Services will 
publish the 6th edition of the Dietary Guidelines for 
Americans. The newly revised guidelines will be released in 
early 2005.
    On a separate but parallel track, we are in the middle of 
updating the Food Guide Pyramid. The Food Guide Pyramid was 
created as a teaching tool to assist the public in interpreting 
the Dietary Guidelines in eating a healthful diet. We placed a 
notice in the Federal Register last year asking the public for 
comment on the technical underpinnings of the Food Guide 
Pyramid. Use of the Federal Register system opened up the 
process to the public for the first time. USDA received 
widespread support for its scientific base of these revisions, 
the comments supported using calorie levels for sedentary 
individuals as the basis for assessing nutrition adequacy. 
Using RDAs and other standards from the National Academy of 
Sciences Dietary Reference Intake reports as the nutritional 
goals, using common household measures such as cups and ounces 
rather than servings and emphasizing increased intake in 
unsaturated fats and oils, whole grains, legumes and dark green 
vegetables. A second Federal Register notice will be published 
this summer to obtain public comment on the graphic image and 
the education messages for the new food guidance system.
    The last and most critical stage of the revision process is 
implementation. That is, the plan to inform and educate 
Americans. Research tells us that people recognize the pyramid 
image but don't follow it. That is why we are so committed to 
full implementation and exploring new and effective ways to 
reach the public. USDA's Food and Nutrition Services also plays 
a critical role in promoting healthy diets and lifestyles for 
the Federal Nutrition Assistant Program participants. These 
programs touch the lives of 1 in 5 people in the United States 
each year. They represent a prime opportunity to help low 
income people change their eating and physical activity 
practices to achieve a healthy weight.
    Mr. Chairman, I would ask the committee to refer to my 
prepared remarks for a list of examples of how the Food and 
Nutrition Consumer Service mission area is supporting the 
President's Healthier U.S. Initiative by promoting healthier 
eating and physical activity throughout our nutrition 
assistance programs.
    In conclusion, we appreciate the committee's interest in 
nutrition and its critical role in overall healthy lifestyles. 
Government has an essential role in helping Americans adopt a 
healthy lifestyle. That includes eating a nutritious diet, 
being physically active and achieving and maintaining a healthy 
weight. We know the Government alone cannot reverse the growing 
trend in obesity. Meeting this challenge requires partnerships. 
These partners include policymakers at Federal, State and local 
levels, industry, health and advocacy organizations, schools, 
the media and of course, the American public. USDA is fully 
committed to doing all it can to address this issue.
    I want to thank the committee for the opportunity to share 
our efforts with you.
    [The prepared statement of Dr. Hentges follows:]

    [GRAPHIC] [TIFF OMITTED] T5914.040
    
    [GRAPHIC] [TIFF OMITTED] T5914.041
    
    [GRAPHIC] [TIFF OMITTED] T5914.042
    
    [GRAPHIC] [TIFF OMITTED] T5914.043
    
    [GRAPHIC] [TIFF OMITTED] T5914.044
    
    [GRAPHIC] [TIFF OMITTED] T5914.045
    
    [GRAPHIC] [TIFF OMITTED] T5914.046
    
    Chairman Tom Davis. Thank you very much.
    I could ask you 2 hours of questions. I have 5 minutes and 
I want to do a few. First of all, we are updating the Food 
Guide Pyramid. Is there any evidence that what we have been 
told the last 40 years may not have been exactly the right 
pyramid for a generation of kids who have turned out to be 
obese?
    Mr. Hentges. Mr. Chairman, I believe the science behind the 
Food Guide Pyramid is based upon authoritative consensus 
science such as the National Academy of Science reports on the 
recommended dietary allowances.
    Chairman Tom Davis. Do the consensuses change over time?
    Mr. Hentges. It is evolutionary. If we look at the last 60 
years, there is new data and one of the reasons for our current 
revision is because the National Academy of Science has just 
gone through a major revision of the dietary reference intakes, 
so we need to come up to stay in touch with where the science 
is bringing us.
    Chairman Tom Davis. This has to be lobbied heavily behind 
the scenes. You talk about interest groups up here on Capital 
Hill, you talk about the sugar lobby, the milk producers, these 
are well funded groups. How you put together that food pyramid 
can be devastating to their bottom line. Are you listening to 
those groups? Are they having any influence in this or are you 
just going strictly on scientific consensus?
    Mr. Hentges. It is scientific, but Under Secretary Boss has 
definitely set an open door policy for anybody coming in, 
whether it is American Dietetic Association or a commodity 
group or the Institute of Food Technologists, all of them, but 
indeed, if you look at the basis for the Dietary Guidelines 
Advisory Committee and that Federal policy, everything that 
comes out in the revision of a Food Guide Pyramid will be in 
total harmony with the nutrition policy.
    Chairman Tom Davis. Mr. Swann you stayed in shape after 
your playing days, you look in pretty good shape. The exercise 
is obviously a critical component, but you can't exercise your 
way out of obesity if you continue to gorge. What is your 
analysis of that and how do you stay in shape and what do you 
counsel others to do?
    Mr. Swann. What I do is I monitor how I eat, when I eat and 
I also try and get exercise on a regular basis. That is really 
an important factor. You have meetings scheduled here, we all 
schedule the things that are important to us and we say we 
don't have time for exercise. That is because we don't schedule 
it. If you are not exercising, you are not considering it 
important enough to do it. It is not an elective. For me it is 
not an elective not because I want to be a professional 
athlete, that is not what it is about. I exercise more now than 
I ever did before because I want to have a good quality of 
life. If I reach the age of 80 or 90 years of age, I want those 
years to be good years. I don't want them to be feeble, I don't 
want to be frail and fall down and have it be the cause of my 
death because I am not physically capable. That is what I do.
    We have a Web site, the presidentschallenge.org. It is set 
up and designed to give people tools to be physically active, 
to motivate and incentivize them to have some kind of workout 
program. It is a non-competitive program because we have to be 
mindful of the kids who are not athletic and who don't have the 
ability to run, jump and do all those things. There over 100 
different forms of physical activity on this list where you can 
get points toward Presidential awards. So we encourage people 
to go there. It is at that site, fitness.gov, you can get a 
tremendous amount of information and then you can act on it but 
it has to be in harmony. There has to be a level of activity 
and a level of nutrition that goes along with it. Keep in mind, 
I have friends and we all have friends who probably eat 
extremely well or might be vegans or vegetarians. If you eat 10 
times the amount of food you should eat and it is all good for 
you, then you have consumed a bad quantity of food and it is 
going to have adverse effects, so you have to be mindful of the 
quantity and quality and making good individual decisions.
    Chairman Tom Davis. I think there is universal agreement in 
the testimony of the three of you that childhood is really the 
best chance to slow the obesity epidemic through food but also 
through exercise. Lynn, what are you seeing in the school 
systems? Are they promoting physical fitness or do you see 
mixed results around the country? Any thoughts on that?
    Mr. Swann. We see very mixed results around the country. 
Before taking this job, I had an opportunity to talk to 
Governor Schwarzeneggar of California about his role. He spent 
part of his term when he was chairman of the President's 
Council on Physical Fitness and Sports trying to reach out to 
every Governor in America to put physical education in the 
schools. When he started, there was one State, IL, that 
mandated physical education as a part of their educational 
program. Today there is only one State in the Nation that 
mandates physical education as a part of the basic curricula, 
the State of Illinois. It is not California, not Pennsylvania, 
not Florida, not Texas, just Illinois.
    So when you go around schools you see a variety of 
programs, some are very, very good, some are not being taught 
by physical education teachers because there isn't a physical 
education teacher on staff but there are programs you can 
implement. So we have a variety of programs around the Nation 
but nothing consistent for a nation.
    Chairman Tom Davis. Thank you very much.
    Mr. Waxman.
    Mr. Waxman. I want to thank the three witnesses here today 
to help us understand what approaches we can take to be 
effective in dealing with obesity. I appreciate your testimony.
    Dr. Hentges, let me start with you. Nutritional education 
through the Food Stamp Program is an important way to reach a 
lot of people. There have been new guidelines by USDA saying 
that funds ``may not be used to convey negative, written, 
visual or verbal expression about any specific foods, beverages 
or commodities.'' It also provides under these guidance that 
the USDA staff has the right to review educational campaigns to 
make sure there is no belittlement or derogation of such items. 
Can you explain whether there is any scientific evidence 
justifying this provision?
    Mr. Hentges. I am not real familiar with the issue but I 
know specifically that one. I know that in the revisions in the 
current activities, on the Food Stamp Nutrition Education 
Program, they are trying to focus more sharply on these current 
issues. I know within the review of education materials that 
are used throughout the Government for communication, there is 
a cross agency committee that looks for this speaking with one 
voice and making sure we are unified in sticking with nutrition 
policy.
    Mr. Waxman. Let me ask you, would you be willing to share 
with this committee a full explanation of how this provision 
was developed including all correspondence with the food 
industry, all examples of State educational programs that were 
rejected by USDA staff?
    Mr. Hentges. I would be very glad to provide written 
comments on what has occurred on this issue.
    Mr. Waxman. We want your written comments and also 
documents and letters as it was developed. I think that would 
be helpful for us to understand it further.
    There is another issue as well I want to ask you about. 
There is a framework for nutrition education that was published 
in May 2004 requiring educational efforts be narrowly targeted 
at food stamp recipients. It appears to prohibit States from 
using the funds as part of a broad social marketing campaign 
designed to change the eating patterns of the entire community. 
I would like to find out what evidence justifies this approach 
and perhaps you can also submit to us all the information on 
how that was developed?
    Mr. Hentges. I am vaguely familiar with this and I know 
from a regulatory standpoint, there are restrictions on using 
these funds with participants, but where there is an overlap of 
public service or community announcement aimed at the food 
assistance participants, there is a broader range of reach to 
the communit--and I will provide you the specifics on that.
    Mr. Waxman. I am concerned about what evidence would 
justify this kind of restriction because it would seem that if 
obesity is a public health program, we wouldn't want to say you 
can only talk about the obesity issues to the food stamp 
recipients if a State wanted to go broader than that and talk 
about all kids, not just kids on food stamps. You would agree 
with that?
    Mr. Hentges. Yes, and I would say our programs at the 
Center for Nutrition Policy and Promotion are aimed at the 
general public and we work with the Food and Nutrition Service 
for their specific programs and what they are allowed to do 
with the recipients of food assistance.
    Mr. Waxman. I find the restrictions about belittling food 
troubling because, for example, you might say to eat an apple a 
day is a good healthy thing to do but you would be prohibited 
from saying, don't eat more junk food, isn't that correct, 
because that might be belittling junk food?
    Mr. Hentges. I will have to get back to you on exactly what 
those regulations are.
    Mr. Waxman. Dr. Crawford, I mentioned in my opening 
comments the false and misleading information that I think may 
be made available to the consumers inappropriately under the 
LEA. I would like to know how the FDA could say they are not 
going to enforce the law on information that doesn't have a 
scientific consensus behind it and how the FDA would allow 
scientists, even when there is an extremely low level of 
comfort about the claim, to be permitted to go ahead and make 
these claims. Are you familiar with this provision by the FDA 
and can the FDA justify taking this action even though it is 
inconsistent with the law?
    Dr. Crawford. Yes, I am familiar. The concept is this. We 
had some adverse court rulings with some positions we had taken 
on health claims, so we developed the idea of growing out of 
that with some internal consideration of allowing qualified 
health claims. Basically, this means although scientific 
consensus might not be 100 percent, it is enough to where we 
are able to say if the company or if the organization applying 
for the health claim would be willing to qualify honestly and 
directly in terms of how strong the evidence is, we would 
consider what is called a qualified health claim.
    On the walnut issue you mentioned, that grows out of the 
fact that walnuts were determined to have Omega 3 fatty acids 
and also it was determined that the Omega 3 fatty acids in 
walnuts were bioavailable. So it followed that they could get a 
qualified health claim if they intended to. There was also some 
talk earlier, I am not sure if it was you or someone else 
talking about what does this will do for competition? Actually, 
when a qualified health claim is granted, any company that 
produces, sells, or markets walnuts in this case may use it.
    Mr. Waxman. It allows more than one manufacturer to make 
claims that are qualified, but in reality, could be 
scientifically inaccurate, maybe even misleading, and when the 
law says proscriptively you ought to have scientific consensus 
before you could go out and make these kinds of claims, it 
seems to me the FDA is rewriting the law. I think one of the 
dangers is it could start to be a Tower of Babel of misleading 
information and the public is going to doubt the credibility of 
any of these labels, especially if it is an FDA label because 
they will know that it is not based on good science. Qualified 
answers may not be based on good science and may not represent 
what Congress spoke to, which is there really is a scientific 
consensus before these kinds of claims can be made. It is 
obviously the advantage of the manufacturer to make claims that 
are misleading. We don't want that to happen. We didn't want 
that to happen when we passed the law. I am afraid the FDA 
policy undermines that provision.
    Dr. Crawford. If I could followup? We don't think it 
undermines the policy. What we find is that there rarely is 100 
percent scientific consensus, so the question is whether you 
allow any exposition of what the health advantages of a food 
might be in a way that is qualified so that it is honest and is 
not misleading. That is what we are attempting to do.
    Chairman Tom Davis. Thank you very much.
    Mr. Shays.
    Mr. Shays. Thank you for conducting this hearing and I 
would like to put on the record that Mr. Ose would tempt us to 
take some of the snacks he has stacked up at his desk and I had 
a Heath bar crunch and one Oreo cookie but turned down a lot of 
other things.
    I would like to ask each of you whether you think there is 
logic to companies being sued because they offer a menu that 
people don't eat in moderation, blaming the companies instead 
of their own children or their own oversight of their own 
children and so on? I would like you to speak to that issue.
    Dr. Crawford. I do not think that is logic and I think what 
we have to do is inculcate individual responsibility, I think 
the Government has a role and I believe all three agencies 
represented here have a big part of that role to try to get 
things back on course. I also think supporting mandatory 
physical education programs as Mr. Swann has mentioned is also 
important but I do not see the logic of that. If someone wants 
to sue a fast food company or something like that because of 
their abrogation of individual responsibility, I don't think 
that follows.
    Mr. Swann. I would simply state that I agree. We have to 
make sure people are educated to make good individual choices 
and decisions. I think all of us who are sitting in this room 
have the foods we would put in the junk food category that we 
like to eat and we enjoy, but it is the decision not to eat the 
whole bag if you are going to have a few potato chips, not to 
eat a dozen doughnuts if you want to have one and have a proper 
amount of physical activity to balance it out, and it is 
individual responsibility. Certainly we want to make sure the 
individual knows what he or she is consuming, so labeling 
becomes very important. I do not see the logic in suing a 
company for what we individually decide to eat.
    Mr. Hentges. I would say the challenge before us is really 
more effective implementation, whether it is through our food 
label, through our dietary guidance, or through our guide 
system, whether it be a pyramid or whatever and to be able to 
do that, we need to have partnerships, not only partnerships 
amongst the academic and health organizations, but we need the 
industry to partner with us to be able to get this information 
out so that we avoid some of these other alternatives.
    Mr. Shays. I thank all three witnesses. I also want to 
thank Mr. Waxman who is not here because in years past he was 
very involved in labeling issues. I think they are absolutely 
essential to provide all the information we can possibly have. 
I think the FDA can continue to do a better job. I think you 
can continue, Doctor, to find different ways to help educate 
people.
    The bottom line for me is I am absolutely amazed that 
parents would have their kids sue someone. They just need to 
look at themselves and their own responsibilities. I hope our 
country doesn't go down the route of blaming someone else for 
the responsibility of the individual.
    With that, Mr. Chairman, I thank you for this hearing. I 
think it is very important. I appreciate all the witnesses and 
our second panel as well.
    Chairman Tom Davis. Thank you very much.
    Mr. Towns.
    Mr. Towns. Thank you very much, Mr. Chairman. Again, let me 
thank you for holding this hearing. I think this is a very 
important hearing.
    Before I start, I would like to ask, Mr. Chairman, if I 
could put the High Calorie, Low Nutrient Children's Diet in the 
record?
    Chairman Tom Davis. Without objection, it will be put in 
the record at this point.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T5914.047
    
    Mr. Towns. Thank you.
    Dr. Crawford, does your department collaborate with the 
Department of Education?
    Dr. Crawford. Yes, sir, we do. With respect to obesity, we 
have worked out an agreement with Secretary Paige so that we 
will partner with them in terms of the education message 
because obviously he has more access to the target audiences in 
the education message, particularly in the schools. So yes, 
when we had the Obesity Working Group, he designated a contact 
person and I designated one and the two of them have been 
working together. So we do partner with them, yes.
    Mr. Towns. Do you have an opportunity to ever look at the 
school lunch program?
    Dr. Crawford. That is in the Department of Agriculture.
    Mr. Towns. Yes, but have you ever had the opportunity to 
look at them?
    Dr. Crawford. I have eaten some of them, yes, sir, but not 
in a long time.
    Mr. Towns. The reason I asked that is when you look at some 
of the things they are serving young people today in some of 
the schools, I think it is a shame. Nobody is saying anything. 
That is the reason I raised this issue. I know it is not 
directly your jurisdiction but I think when it comes to 
guidelines and getting out information, it seems to me you 
would sort of convey to the Department, and we would also raise 
this issue with the Department of Agriculture as well, but I 
think that is the basis. If you start in the kindergarten and 
first grade serving these kinds of things to kids and they 
think it is OK because after all, the school is doing it.
    Dr. Crawford. I take your point. I think you are exactly 
right. What we need to do is start early, as you said, but we 
also need to give them a few more tools to work with. For 
example, if you look on the nutrition label now, we hope the 
nutrition label will be under our agreement with the Department 
of Education, a mechanism by which young children are trained 
to take this individual responsibility at an early age. On the 
label now, it says what an item's calorie content is but it 
doesn't relate that to the amount of calories you are allowed 
to consume in 1 day on average and maintain your weight.
    We are moving toward having on the label, if you drink a 
milkshake that is 1,000 calories, it now will say in bigger 
letters that it is 1,000 calories but in the future it will 
also say you have just now eaten 50 percent of what you can eat 
today and maintain your weight and not increase weight. You 
could say it is a simple message but the science of it is 
elegant really and I think we can use that as a means to 
educate students.
    I remember in my own case when I was consuming those school 
lunch programs, we had mandatory in the State where I grew up 
what was called a health book in the third grade. In the third 
grade we were taught the basic food groups, we would talk about 
calorie dense foods, talk about junk foods and I think it did 
instill individual responsibility but we didn't have many tools 
in those days, we didn't have a nutrition label. It is up to us 
at FDA and the rest of the Government to make it work and also 
to make it work for all of the people in America, including the 
children.
    Mr. Towns. Thank you.
    Would you like to answer that?
    Mr. Hentges. Regarding the school lunch program, by statute 
it is required that the School Lunch Program comply with the 
dietary guidelines and other criteria set by the Secretary. 
Those include the school lunch program not be more than 30 
percent of calories from fat, no more than 10 percent of 
calories from saturated fat, that they meet one-third of the 
RDAs for protein, calcium, iron, Vitamin A and Vitamin C.
    I think part of the issue here is that as a local decision, 
schools can decide to include competitive foods but when the 
child gets the school lunch program meal, it does comply with 
the dietary guidelines established but there is the issue of 
competing foods which is a local level decision.
    Mr. Towns. Mr. Chairman, just give me a second. I want to 
ask Mr. Swann one question.
    First of all, thank you for the work that you are doing. 
How do we deal with the situation where there are budget cuts 
and as soon as you cut the budget, the first thing that goes 
out is the extracurricular activities such as intramural 
sports. That is the first thing they eliminate. How do we get 
around that because that is the real problem.
    Mr. Swann. It is a real problem. Mr. Schrock earlier had 
talked about individual responsibility and not having too much 
government but the reality is on our Web site, the 
presidentschallenge.org, the President's Physical Fitness 
Program is one that can be implemented in schools and does not 
require necessarily a physical education teacher. So there are 
programs that teachers and school districts can implement. They 
may not be an organized sports team that would be competitive 
in some nature but they can organize those intramural sports 
teams on their own, they can implement a physical education 
program within their classroom whatever their curriculum might 
be. It could be as simple as saying instead of you sitting in 
this classroom for an hour, we provide 10 minutes that you get 
up and stretch, walk around and move your legs so that you are 
not sedentary for the entire school day, any particular age.
    I agree with you that when money is tight, the sports 
programs, the physical education programs and even the art and 
music programs are the first to go because they are not 
mandated by a particular State's educational program but there 
are other ways to get that exercise and we have to seek those 
other ways because it should not be an elective, it should be a 
priority in their lives.
    Chairman Tom Davis. Thank you.
    We have other Members who want to ask questions but we have 
a vote and in addition, one of our witnesses on the next panel 
has to catch a helicopter and I want to get his testimony 
before he has to go.
    I would like to call Dr. Stuart Trager from Atkins. Dr. 
Trager, if you could give your testimony now?
    Mr. Ose. Mr. Chairman, while Dr. Trager is preparing could 
I?
    Chairman Tom Davis. Go ahead.
    Mr. Ose. In southern California, for 31\1/2\ years, this 
issue has existed and we have in front of us a witness today 
who can finally put to rest the truth about what happened on 
December 23, 1972 when the Oakland Raiders were robbed in 
Pittsburgh. [Laughter.]
    Chairman Tom Davis. Well, you have him under oath. This is 
your shot.
    Mr. Ose. I understand. That is exactly my point. Before I 
get an answer to that, I also want to examine this. This 
witness went to USC and there were a number of occasions in the 
early 1970's when his college team came to the University of 
California and attempted, attempted I say, to defeat the Cal 
Bears. I just want to get on the record some answers to some 
questions if I could, Mr. Chairman.
    Chairman Tom Davis. Quickly.
    Mr. Ose. Swanee.
    Mr. Swann. As quickly as possible.
    Mr. Ose. Let me ask the question first.
    Mr. Swann. I thought you did. I was going to say we made no 
attempt to beat the Cal Bears, we did beat them. [Laughter.]
    Mr. Ose. I remind the witness he is under oath.
    Chairman Tom Davis. Mr. Ose, I would quit while I am ahead 
here.
    Mr. Swann. And in 1972 when Franco Harris made his now 
famous immaculate reception, the official said it was a 
completed pass, it was good, it was a touchdown and I, myself 
being so much younger, was just a junior at USC playing on the 
national championship team, so I can't give you any eye witness 
testimony.
    Mr. Ose. Mr. Chairman, let the record show that the witness 
had no knowledge whatsoever of what occurred in Pittsburgh 
Stadium that day. [Laughter.]
    Chairman Tom Davis. Thank you.
    Dr. Trager.
    [Witness sworn.]
    Chairman Tom Davis. Thank you for being with us. This is 
important testimony. Mr. Swann, I think you and Dr. Crawford or 
Dr. Hentges are going later but he is going to give a keynote 
speech so he has to catch a helicopter ride down there. We 
would have moved him up to the panel had I known we would be 
delayed this long with the markup but this is important 
testimony as well because Atkins has revolutionized the way a 
lot of us look at food and food products.
    Dr. Trager, thank you.

  STATEMENT OF DR. STUART TRAGER, CHAIRMAN, ATKINS PHYSICIANS 
                            COUNCIL

    Dr. Trager. Mr. Chairman, thank you very much for 
accommodating my schedule.
    Members of the committee, I thank you all for asking me to 
appear today and commend you for addressing the Government's 
role in combating the obesity epidemic and promoting healthy 
ways for individuals to fight this critical public health 
issue.
    By way of introduction, my name is Stuart Trager. I am 
medical director of Atkins Nutritionals. I too am an avid 
Atkins adherent following this approach for the last 4 years of 
my life. I practice orthopedic surgery and I am an eight time 
Iron Man finisher. Sitting next to the panel today, it is tough 
to get much out of that Iron Man finisher, however, at the time 
it seemed pretty difficult.
    Taken together, this rather unique combination of 
experiences has given me great insight into the challenges 
presented to those fighting to maintain healthy weight, to 
those living with medical complications of obesity and to those 
frustrated by their own inability to achieve weight loss 
through exercise. Though the banner at the finish of the Iron 
Man says ``Anything is possible,'' I am afraid for many running 
35 miles to burn the 3,500 calories necessary to shed 1 pound 
of body weight is just too great an obstacle to overcome.
    To create strategy for success, it is critical that we 
appreciate the factors that have resulted in the current 
epidemic of obesity. Surely schedules are more hectic than 
ever, portion sizes are expanding as rapidly as our waistlines 
and highly processed, convenient foods are omnipresent. These 
circumstances have created a real challenge to the Nation. To 
begin, we must be willing to move beyond the one size fits all 
approach that has dominated the nutritional dogma for the last 
three decades.
    As we address the challenges of the Nation associated with 
this current epidemic, it is worth recalling the words of Dr. 
Walter Willett from the Harvard School of Public Health who 
stated, ``Mainstream nutritional science has demonized dietary 
fat, yet 50 years and hundreds of millions of dollars of 
research have failed to prove that eating a low fat diet will 
help you live longer.'' Facing hard truths is never easy. 
However, the current obesity crisis is currently estimated at 
taking 400,000 lives each year. The dietary guidelines are 
clearly not working and prospects for inclusion of alternatives 
in the rewrite are not entirely promising. There is a clear 
need to challenge the status quo and to continue to fight the 
nutritional establishment and conventional wisdom if we are 
going to stem this epidemic.
    When USDA's survey showed that while 80 percent of 
Americans recognize the Food Pyramid, very few heed its advice, 
it is clear that we need alternatives. As we move forward, our 
strategy must provide real life tools that work in the current 
environment. For an increasing number of people, it is becoming 
clear that controlling carbohydrates is one such option.
    Because promising magic is no more beneficial than 
prescribing strategies that are unobtainable, we must always 
remember that solutions to this epidemic have to be supported 
by evidence based science. Increasing public awareness about 
the importance of scientific validation of safety and efficacy 
is important and with Atkins, it is clear this has helped many 
recognize the benefits of the strategy.
    The consistent stream of supportive clinical research 
including these two independently funded studies, one from the 
American Heart Association and the other from the National 
Institute of Health, have opened many eyes to the safety and 
efficacy of controlling carbohydrates as an alternative to 
traditional dietary recommendations.
    The recent publication of two additional studies, one from 
Duke, the other from the Philadelphia Veterans Hospital, have 
lent further support. Simply put, for many, weight loss occurs 
more rapidly when following Atkins, more calories can be 
consumed while on Atkins, compliance is enhanced on Atkins and 
risk factors as well as diabetic control improved while on 
Atkins.
    With recent editorials in the annals of Internal Medicine 
and the American Journal of Cardiology, it is clear we are 
making much progress in changing opinions. It is at times easy 
to forget that despite the critical importance of science in 
this debate and that we must never rely on anecdotal reporting, 
that this is about helping people. To that end, I thought it 
worthwhile reminding everyone why we are really here. The 
individuals losing weight and improving risk factors in these 
studies on Atkins have names and faces. Real people in the real 
world are losing weight and improving their cardiac risk 
factors by following the Atkins approach, something Dr. Atkins 
fought for 30 years to make the establishment pay attention to.
    Counting carbohydrates is simply more palatable for many 
than eating smaller portions of less satisfying foods. At 
Atkins Nutritionals, we feel a tremendous sense of 
responsibility to assure that this powerful tool is used 
correctly, that people obtain the best possible results and 
that we truly impact the epidemic of obesity. We have helped 
develop the Atkins Food Guide Pyramid to address the myths and 
misconceptions put forth by the low fat advocates, the animal 
rights activists and the copycats who would have you believe 
that Atkins is just about red meat and bacon.
    If you look at the Food Guide Pyramid we have distributed, 
you see there are lots of fruits, vegetables and the right 
carbohydrates. This was Dr. Atkins' effort put forth in January 
of last year before he died. We are actively reaching out to 
decisionmakers here in Washington and we are committed to 
helping to spread our message of carbohydrate awareness to our 
education and youth initiatives. We are committed to ensure 
that the public knows the correct way to control carbohydrates, 
the time tested way that science has repeatedly validated.
    In conclusion, I would like to thank the committee for 
taking the time to discuss this very important matter. To make 
a difference, we believe Congress should invest in more science 
and provide additional information regarding this alternative 
to the low fat, low calorie dogma of the last three decades and 
continue to scrutinize guideline revisions and allow for more 
seats at this very important table.
    Thank you.
    [The prepared statement of Dr. Trager follows:]

    [GRAPHIC] [TIFF OMITTED] T5914.048
    
    [GRAPHIC] [TIFF OMITTED] T5914.049
    
    [GRAPHIC] [TIFF OMITTED] T5914.050
    
    [GRAPHIC] [TIFF OMITTED] T5914.051
    
    [GRAPHIC] [TIFF OMITTED] T5914.052
    
    [GRAPHIC] [TIFF OMITTED] T5914.053
    
    [GRAPHIC] [TIFF OMITTED] T5914.054
    
    [GRAPHIC] [TIFF OMITTED] T5914.055
    
    [GRAPHIC] [TIFF OMITTED] T5914.056
    
    [GRAPHIC] [TIFF OMITTED] T5914.057
    
    [GRAPHIC] [TIFF OMITTED] T5914.058
    
    [GRAPHIC] [TIFF OMITTED] T5914.059
    
    [GRAPHIC] [TIFF OMITTED] T5914.060
    
    [GRAPHIC] [TIFF OMITTED] T5914.061
    
    [GRAPHIC] [TIFF OMITTED] T5914.062
    
    [GRAPHIC] [TIFF OMITTED] T5914.063
    
    [GRAPHIC] [TIFF OMITTED] T5914.064
    
    [GRAPHIC] [TIFF OMITTED] T5914.065
    
    [GRAPHIC] [TIFF OMITTED] T5914.066
    
    [GRAPHIC] [TIFF OMITTED] T5914.067
    
    Chairman Tom Davis. Dr. Trager, thank you.
    We are here at the mercy of the congressional schedule and 
they have votes scheduled right now, a series of three votes. 
One of them is on anabolic steroids and stopping their use and 
proliferation, so it is relevant to what we are doing. We will 
come back in a half hour.
    I would like to dismiss this panel so that you all can get 
on with your business. I just want to ask one last question. 
You heard Dr. Trager talk about more investment in scientific 
research. I know Dr. Atkins always said, it wasn't hand to 
mouth but he didn't have the millions to invest. Is that a good 
idea? From an Agricultural point of view and the FDA, are we 
putting in enough or could you use more resources if Congress 
provided them?
    Mr. Hentges. I would definitely support the 
administration's budget request on research and it is an area 
that we can't let fall behind for sure.
    Chairman Tom Davis. Thank you.
    Dr. Trager. Mr. Chairman, there are tens of millions of 
people who are choosing this controlled carbohydrate approach 
that are following the Atkins' strategy.
    Chairman Tom Davis. You see it everywhere you go. The 
marketplace will overwhelm government if government doesn't 
react.
    Dr. Trager. What we are looking for is more research 
dollars so that this can be studied so that we can have the 
long term studies. Because we know that it works, we now need 
to add the science to it to help these people to make sure the 
message is clear so they get the information to do it 
correctly.
    Chairman Tom Davis. Thank you.
    Dr. Crawford. I agree that we do need the kind of targeted 
research that this new road map that the National Institutes of 
Health has put together because of the funding that Congress 
has been able to provide them and we need targeted basic 
research to know some of these things, like why does obesity do 
what it does? We still don't really know that.
    Chairman Tom Davis. Thank you. I know Mr. Swann would say 
more research is fine but don't cut out the PE programs?
    Mr. Swann. Yes.
    Chairman Tom Davis. This has been great. As I said, I wish 
we could go on all day, I could go 2 hours just with my own 
questions. I know Mr. Ose has his major question out of the way 
for this but we will come back with the next panel. Thank you 
all very much.
    We will recess for half an hour and come back with the next 
panel.
    [Recess.]
    Chairman Tom Davis. We have everyone here. The committee 
will come back to order.
    If you would rise for the oath?
    [Witnesses sworn.]
    Chairman Tom Davis. Thank you very much for being here. We 
will have Members drifting back from a series of votes. We will 
have another series of votes probably in about an hour, maybe a 
little before, so I want to move through the testimony quickly 
so we can get to questions.
    I can't tell you how excited we are about the panel we have 
here today, the expertise and the opinions that you bring to 
this. What I think I will do, we have Dr. Agatston who had 
already been introduced by Ms. Ros-Lehtinen; we have Dr. G. 
Harvey Anderson, professor, Department of Nutritional Sciences, 
University of Toronto; Dr. Susan Finn, Chair, American Council 
for Fitness and Nutrition; and Bruce Silverglade, director, 
Legal Affairs, Center for Science in the Public Interest. 
Doctor, why don't we start with you and we will move down the 
line. Thanks so much for being with us.
    I will just say I had a hot dog and tuna fish for lunch. I 
don't know if it is good or bad.
    Dr. Agatston. No comment.

STATEMENTS OF DR. ARTHUR AGATSTON, CARDIOLOGIST AND AUTHOR, THE 
SOUTH BEACH DIET; DR. G. HARVEY ANDERSON, PROFESSOR, DEPARTMENT 
OF NUTRITIONAL SCIENCES, UNIVERSITY OF TORONTO; DR. SUSAN FINN, 
 CHAIR, AMERICAN COUNCIL FOR FITNESS AND NUTRITION; AND BRUCE 
SILVERGLADE, DIRECTOR, LEGAL AFFAIRS, CENTER FOR SCIENCE IN THE 
                        PUBLIC INTEREST

    Dr. Agatston. Thank you, Chairman Davis. I would like to 
thank Representative Ros-Lehtinen for her very kind words.
    There is a major untold story currently unfolding in 
America. Cardiologists and internists across the country who 
are practicing aggressive prevention have largely stopped 
seeing heart attacks and strokes in their practices. They just 
don't get called to the emergency room for these events like 
they used to. The factor that is changing the cardiac 
prevention paradigm include non-invasive imaging to detect and 
track early, pre-clinical arteriosclerosis, advanced blood 
testing to determine the cause of pre-clinical disease, new 
medications that target causes of disease like laser beams and 
finally, a growing consensus on the nutritional factors 
associated with the epidemic of obesity.
    I am a cardiologist, not a diet doctor. My journey to 
author a diet book occurred somewhat accidentally. Until 10 
years ago, my primary research interest was in non-invasive 
imaging of the coronary arteries. Around that time, it became 
more and more apparent that my patients, the country and 
frankly, me, were rapidly gaining weight on the nationally 
recommended low fat, high carbohydrate guidelines. In fact, 
there had become a disconnect between the practical day to day 
experience of clinicians and the national guidelines. In 
America, low fat, high carb diets just didn't work and this was 
actually documented in the medical literature again and again.
    The low fat, high carb recommendations were made primarily 
on the basis of population studies that demonstrated that 
societies that consume low fat diets had lower rates of heart 
attack and obesity than high fat societies. There were 
exceptions such as Mediterranean populations where high fat 
intake was associated with low heart attack and obesity rates.
    In the past 5 to 15 years, research has gone a long way to 
explain what went wrong with our low fat experiment. In 
particular, three new perspectives have become widely accepted. 
First came understanding of the importance of fiber and 
glycemic index in our diet. The glycemic index is a measure 
actually pioneered by my colleague, Dr. Anderson and his group 
at the University of Toronto. It is a measure of how fast a 
food causes swings in blood sugar. Rapid swings in blood sugar 
cause food cravings soon after a meal, high fiber foods tend to 
be low on the glycemic index.
    Second came the concept of prediabetes in 1989. We learned 
that low fiber, high glycemic diets often resulted in obesity, 
pre-diabetes and then diabetes by amplifying those swings in 
blood sugar. Third, new research demonstrated that not all fats 
are equal. Mediterranean oils, particularly olive and Omega 3 
oils, have favorable effects on both cardiovascular and general 
health.
    With this important new information, the causes of our 
epidemic of obesity became apparent. No. 1, the type of 
carbohydrates consumed in the low fat countries was high in 
fiber and low in glycemic index. That adopted in the United 
States was low in fiber and high in glycemic index. The 
consumption of unprecedented amounts of high glycemic processed 
carbohydrates produced swings in our blood sugar that resulted 
in frequent cravings and increased caloric intake leading to 
the obesity epidemic. Secretary Tommy Thompson announced 
recently that over 40 percent of Americans over the age of 40 
are pre-diabetic.
    No. 3 was because animal protein in our diets is from corn-
fed cattle and poultry that do not run free and have high 
levels of saturated fat and insignificant levels of health 
Omega 3 oils. No. 4, in an attempt to lessen our intake of 
saturated fats, trans fats were introduced and became 
ubiquitous in our commercial baked goods and fast foods. We now 
know that trans fats are worse than saturated fats for both our 
waistlines and our blood vessels.
    In response to my own frustration with the low fat diet, in 
1995 I decided to try a different approach. I was also 
influenced by the beginning of the low carb diet trend 
pioneered by Dr. Atkins. While I found the low carb diet 
approach fascinating, I felt the scientific evidence pointed in 
a slightly different direction. My patients had already had 
heart problems and/or were at high risk for heart disease. 
There was too much evidence that saturated fat was associated 
with coronary disease. On the other hand, evidence was growing 
that the healthy Mediterranean oils had favorable effects on 
our lipids and on our cardiovascular health.
    As far as carbohydrates, it became clear that what was 
causing our epidemic of obesity was not carbohydrates per se 
but the processed rapidly digested high glycemic carbohydrates. 
The good, non-processed carbohydrates were too rich in vitamins 
and nutrients to restrict. We developed a simple and flexible 
diet plan for our patients that followed the principles of good 
nutrition, dense carbohydrates, healthy fats and lean proteins. 
There was no counting calories, grams of fats or grams of 
carbohydrates.
    While calories definitely count, it was our observation 
that counting calories alone did not work. Carbohydrate choices 
were made on the basic of glycemic index. We found that when 
proper food choices were made, hunger and cravings diminished 
and fewer calories were consumed. We also strongly encouraged 
exercise throughout for burning calories, for building and 
maintaining lean body mass and for cardiovascular health.
    After years of frustration, I was amazed and gratified by 
our patients' response to our program. They lost weight, their 
blood chemistries improved, and they found the diet easy to 
follow. We began reporting our findings at national meetings in 
1997. Our clinical experience indicated the diet could truly 
become a lifestyle. Weight loss was usually sustained and the 
manifestations of pre-diabetes and often of Type 2 diabetes 
were reversed. In 1999, local TV asked us to put south Florida 
on what is now called the South Beach Diet which we did very 
successfully for 3 years. This led us from the clinical and 
academic realm to the public sector.
    The success of South Beach Diet has given me a unique 
opportunity to help change the way America eats. We have 
recently established a non-profit research institute to study 
nutrition and cardiac prevention and are planning a study of 
school children where bad eating habits begin.
    The following are my recommendations for incorporating the 
South Beach Diet principles into the Federal guidelines. The 
diet pyramid should be updated as planned; the base should be 
occupied by the good carbohydrates, vegetables, whole fruits 
and whole grains. The next level should include lean proteins, 
low fat dairy products, and good fats. Above the good fats 
should be saturated fats and above that, processed 
carbohydrates and at the apex, trans fats which we should be 
absolutely restricting. The benefits of proper diet and 
vigorous exercise must become part of school curricula. 
Continued efforts are necessary to educate the public regarding 
healthy food choices.
    I believe that the principles of nutrient dense, good 
carbohydrates, good fats, lean protein and plenty of exercise 
have recently become the consensus of scientific opinion. If 
applied successfully to the American lifestyle, our epidemic of 
obesity and diabetes can be reversed.
    Thank you.
    [The prepared statement of Dr. Agatston follows:]

    [GRAPHIC] [TIFF OMITTED] T5914.068
    
    [GRAPHIC] [TIFF OMITTED] T5914.069
    
    [GRAPHIC] [TIFF OMITTED] T5914.070
    
    [GRAPHIC] [TIFF OMITTED] T5914.071
    
    [GRAPHIC] [TIFF OMITTED] T5914.072
    
    [GRAPHIC] [TIFF OMITTED] T5914.073
    
    [GRAPHIC] [TIFF OMITTED] T5914.074
    
    Chairman Tom Davis. Thank you very much.
    Doctor Anderson.
    Dr. Anderson. Thank you, Chairman Davis, and thank you for 
the opportunity to address your committee on the obesity 
epidemic.
    We all agree that the increase in the prevalence of obesity 
in the past 25-30 years is both startling and alarming but the 
question is, what is its origin and we don't have an origin to 
that question, or we don't have a simple answer. Therefore, my 
message to government is their role must be to keep a steady 
hand on the helm and stay the course until we have both 
evidence for and agreement on a solution or solutions.
    Obesity arises from both environmental and genetic factors, 
but it is agreed that the rapid increase in the prevalence of 
obesity is primarily environmental. Americans at all 
socioeconomic levels are getting fatter and some have 
attributed this to the toxic environment of inexpensive, 
readily available food, reduced activity, increased wealth, 
longevity, stress in the workplace, advertising and even 
mother's diet, just to name a few of the potential factors. The 
point is the origins of this obesity epidemic are not defined 
and are complex. So how can we offer short term solutions?
    In my opinion, the role of Government at the present time 
is to stay the established course of providing dietary guidance 
to the public and to avoid any dramatic changes in the current 
dietary guidelines and food guides. Some argue for change but 
where is the evidence? Change in dietary guidance must be based 
on what we describe in medicine as evidence-based 
decisionmaking. This is a systematic approach to categorizing 
quality of evidence that is available. It does not give equal 
weight to each piece of evidence and does not arrive at simply 
a consensus solution. In other words, the loudest and most 
articulate speaker does not sway the evidence and the final 
decision. Government should have, as a policy, assurance that 
the principles of evidence-based decisionmaking, is applied to 
all forms of dietary guides. Current practice is to base 
dietary guidelines on evidence and consensus, but does not 
apply evidence-based systems.
    I would also like to remind you that dietary guidance is 
for the maintenance of health and prevention of disease. 
Dietary guidelines are guidance statements for government 
policy and provide the basis for consumer messages. Food-based 
guidance to the public is provided by both dietary guidelines 
and food guidance, that is the Pyramid, and if followed by the 
individual, this guidance will lead to food choices providing 
nutrient, adequate diets and will reduce the risk of chronic 
disease. Of course modification of this general guidance is 
appropriate for some populations of different cultures or 
genetic makeup as well as those who develop markers to the 
disease process, for example, high blood cholesterol.
    I don't think there is anything fundamentally wrong with 
current dietary guidance. The question is why don't people 
follow our guidance and select healthier diets, eat less and 
exercise more? We do not have the answer but it seems to me we 
need to make greater effort to communicate our existing dietary 
guidance in more effective ways. Shifting dietary guidance 
without scientific evidence is irresponsible and will only add 
to more confusion.
    Because of the presence of the other speakers, I know you 
know that the carbohydrate, the base of the pyramid, has been 
brought into question. I want to address that specific issue. 
Many hypotheses have advanced suggesting carbohydrates are the 
cause of obesity and one suggests that sugars and processed 
carbohydrates bypass food intake regulatory systems thereby 
causing obesity. The evidence is to the contrary and this is my 
area of expertise. My research shows that all sources of energy 
and diet contribute. Carbohydrates, including sugars, are 
satiating. Carbohydrates are more satiating than fats and less 
so than proteins, although I must note that the ranking amongst 
these depends on quantity and source.
    The real question is what is in the environment that causes 
people to eat too much food and ignore basic physiological 
signals? Why don't people eat more fruits and vegetables and 
whole grain cereals and whole grain products as described in 
the base of the pyramid. Why don't they make the right choices?
    Hypotheses on the role of the food supply and obesity 
epidemic are abundant and require testing and the application 
of evidence-based decisionmaking before we are in a position to 
suggest food-based solutions that are effective. However, I am 
convinced that food-based solutions will not be effective 
unless we also tackle other environmental factors contributing 
to obesity including the low level of activity associated with 
our current lifestyles. In the meantime, let us find ways to be 
more effective in empowering individuals to follow the current 
dietary guidance.
    In closing, I would like to draw your attention to a recent 
publication on ``Dietary Guidelines: Past Experience and New 
Approaches,'' published in the Journal of the American Dietetic 
Association in December 2003. It was my privilege to serve as 
co-organizer of that meeting and co-editor of the publication. 
This international conference strongly advocated the 
application of an evidence-based approach to modification of 
food-based guidance for the public.
    Thank you.
    [The prepared statement of Dr. Anderson follows:]

    [GRAPHIC] [TIFF OMITTED] T5914.075
    
    [GRAPHIC] [TIFF OMITTED] T5914.076
    
    [GRAPHIC] [TIFF OMITTED] T5914.077
    
    Chairman Tom Davis. Thank you very much.
    Dr. Finn.
    Dr. Finn. Good afternoon, Chairman Davis. Thank you for the 
opportunity to discuss the Federal Government's role in 
addressing the Nation's obesity epidemic.
    I chair the American Council for Fitness and Nutrition 
[ACFN]. I am also the past-President of the American Dietetic 
Association.
    As you have heard this morning, we all agree that obesity 
is a growing concern for all Americans. Recognizing the serious 
nature of this issue, in January of last year a coalition of 
food and beverage companies, restaurants and related trade 
associations founded the American Council for Fitness and 
Nutrition to work toward comprehensive and achievable solutions 
to the Nation's obesity epidemic. Today, ACFN represents more 
than 65 diverse organizations and our work is guided by an 
advisory board of 27 distinguished experts in nutrition, 
physical activity and behavioral change.
    The epidemic of obesity did not occur overnight or even 
within the last decade. Understanding the contributing factors 
and the fundamental driving forces provides a key to solving 
this complex and multifaceted challenge. ACFN believes, as do 
most experts in the field, that the ultimate solution to 
obesity is about energy balance, matching calories burned with 
calories consumed. In order to accomplish this seemingly simple 
objective, people must moderate their calorie intake to match 
their energy expenditure by eating less, being more physically 
active, or ideally doing both.
    The Federal Government has an important role to play in 
helping to solve the Nation's battle with weight but we 
recognize the Federal Government cannot fight this battle 
alone. It requires the action of all sectors of society. Toward 
that end, ACFN is working with health professionals, educators, 
policymakers and consumers to develop lasting approaches to 
combat obesity. These approaches focus on improving 
communication to Americans about the need to balance nutrition 
with physical activity.
    While it is clear that the problem of obesity is 
widespread, its impact on America's youth deserves special 
attention. We know, for example, that children who participate 
in physical education programs fare better academically, 
personally and physically than those who are inactive. However, 
physical education requirements in our public schools have been 
declining dramatically over the last 20 years and in only about 
half of our elementary schools do they have PE teachers on 
staff.
    ACFN applauds Congress and the Federal Government for 
numerous important initiatives that seek to address these 
objectives. For example, the Improved Nutrition and Physical 
Activity Act passed by the Senate last December would provide 
much needed funding to develop community-based programs. We 
urge the House of Representatives to pass companion legislation 
sponsored by Representative Mary Bono and 77 other Members of 
Congress.
    ACFN has touted the benefit of PIP grants distributed by 
the U.S. Department of Education. PIP grants provide local 
communities with funding to improve existing physical education 
programs or launch new youth-focused initiatives. We hope 
Congress will continue to fully fund this critical program.
    The Department of Health and Human Services programs 
including Healthier U.S. and the Small Steps to Better Health 
campaigns, focus on health, prevention by encouraging Americans 
to improve their lifestyles while eating a balanced diet and 
increasing their physical activity.
    Earlier this year, ACFN responded to HHS's request for 
partners to promote Healthier U.S. initiatives. In a recent 
report, the Food and Drug Administration Obesity Task Force 
proposed a calorie count campaign and made several 
recommendations to improve consumer understanding of 
appropriate serving sizes. Through the Grocery Manufacturers of 
America, the food and beverage industry is responding to the 
FDA's work by conducting consumer research to better understand 
how to communicate caloric content, especially for single 
servings.
    Under the auspices of HHS and USDA revisions to the Dietary 
Guidelines for America and the Food Guide Pyramid present an 
important opportunity to formulate guidelines that can help 
people of all socioeconomic and cultural backgrounds improve 
their health. While the existing pyramid has recently become 
the subject of some debate, one thing is clear, it is one of 
the most widely recognized nutrition education tools in the 
marketplace. ACFN members are committed to promoting the new 
guidelines when they are released next years.
    The Five A Day Better Health Program Partnership between 
the National Cancer Institute and the Produce for Better Health 
Foundation showcases the scope and reach of public education 
programs can achieve with private sector involvement. In 
addition, ACFN strongly encourages the Government to assess 
what gaps in research exist regarding obesity's causes and 
solutions, either through projects of its own or by partnering 
with agencies or private sector organizations like ACFN.
    In conclusion, the food and beverage industry acknowledges 
the role it plays in providing consumers with many foods and 
beverages that they enjoy every day and is committed to doing 
its part to help consumers better understand how they must 
balance what they eat with what they do. Clearly, all sectors 
of society, including the food industry, must work together to 
combat obesity. Ultimately, individuals have to make a choice 
about the foods they eat and the level of physical activity 
they engage in. Government can and should provide information 
to help consumers make informed choices. Congress must embrace 
proposals that are positive, comprehensive and address obesity 
as an issue rooted in improper energy balance. After all, this 
discussion is not simply about weight gain, it is about the 
health of our Nation.
    Thank you.
    [The prepared statement of Dr. Finn follows:]

    [GRAPHIC] [TIFF OMITTED] T5914.078
    
    [GRAPHIC] [TIFF OMITTED] T5914.079
    
    [GRAPHIC] [TIFF OMITTED] T5914.080
    
    [GRAPHIC] [TIFF OMITTED] T5914.081
    
    [GRAPHIC] [TIFF OMITTED] T5914.082
    
    [GRAPHIC] [TIFF OMITTED] T5914.083
    
    [GRAPHIC] [TIFF OMITTED] T5914.084
    
    [GRAPHIC] [TIFF OMITTED] T5914.085
    
    [GRAPHIC] [TIFF OMITTED] T5914.086
    
    Chairman Tom Davis. Thank you very much.
    Mr. Silverglade.
    Mr. Silverglade. Thank you, Mr. Chairman, for this 
opportunity to testify and I commend you for holding these 
hearings on this vitally important issue.
    The committee has asked us to address several specific 
questions. I will address each of them in turn. The first and 
most important question is what is our view of Government's 
role in shaping health policy, especially on the subject of 
controlling weight? We believe the answer to that is simple. 
Federal, State and local public health agencies have a major 
role to play in ensuring that the food industry provides 
consumers with a healthy food environment. This is perhaps a 
new term but I am going to use it several times in my 
testimony. We need a healthy food environment, at the 
supermarket, in schools, at the workplace and in public 
settings.
    Presently, consumers face a very hostile food environment. 
By this I mean fast food outlets across America heavily promote 
high fat, hight salt and high sugar foods and beverages. 
Vending machines in schools, hospitals and airports offer 
mostly high fat, high salt and high sugar snack foods and soft 
drinks. Food companies fill the airwaves, magazines and 
Internet sites with more than $7 billion worth of marketing 
messages for mostly high fat, high sugar, high salt foods, 
often consumed by children. That $7 billion figure contrasts 
sharply with the meager $4-$5 million spent by the U.S. 
Government on its ``5 fruits and vegetables a day'' program.
    Government is also partly to blame for the hostile food 
environment. Several members of the committee this morning 
raised the question whether Government should be involved in 
this area. Well, Government is part of the problem, so it must 
be part of the solution. For example, Congress requires that 
full fat, whole milk be offered at schools participating in the 
National School Lunch Program. This was a requirement passed at 
the behest of the dairy industry which lobbied Congress.
    Congress also passed legislation at the behest of the beef 
and pork industries to enable USDA to operate advertising and 
promotional campaigns for those industries that are designed to 
increase consumption of beef and pork products, many of which 
are high in fat. Mr. Waxman earlier this morning mentioned 
congressional meddling with the Food Stamp Program, that limits 
the ability of States to communicate to food stamp recipients 
what foods they should be eating for a healthier diet.
    Congress has failed to provide the Department of 
Agriculture with authority to regulate so-called 
``competitive'' foods, foods not part of the official School 
Lunch Program but that are nonetheless sold in schools. As we 
have heard from USDA this morning, competitive foods are not as 
nutritious as the official School Lunch Program. Congress has 
failed to provide USDA with authority to control sale of those 
foods and to add insult to injury, the Federal Trade Commission 
has developed an extensive legal and economic rationale, or 
apology I should say, for why it should not regulate 
advertising of less healthful foods to children.
    In such a food environment, it is no wonder that more than 
60 percent of adults are overweight or obese. Obesity is not 
merely a matter of personal responsibility. Let us think about 
it. Obesity rates have climbed greatly in the last decade or 
so. Did all of these Americans suddenly become irresponsible 
over the last 10-15 years? That would be quite a social 
phenomenon to say the least. No, Americans have not suddenly 
and inexplicably become irresponsible on a societal level.
    What has occurred in the last 10-15 years is changes in the 
way foods are marketed, changes in the proliferation of less 
healthful processed foods, often packaged in huge single serve 
portions. What has changed is not a massive social phenomena of 
where Americans have become socially irresponsible but what has 
the huge amount of money spent by the food industry to increase 
to promote unhealthful food products.
    While individuals are ultimately responsible for what they 
put in their mouths, the World Health Organization, the world's 
leading public health agency, has stated in a new global 
strategy on diet, physical activity and health, just issued 2 
weeks ago, that it is Government's role to make the healthy 
choice the easy choice. I will repeat that because it is really 
a key element. Government's role is to make the healthy choice 
the easy choice. We are pleased to see that Dr. Crawford 
representing the administration who was at the Geneva, 
Switzerland meeting of the WHO, said that the administration 
supports the WHO's global strategy. Let us see how that 
statement compares to what the Federal Government is really 
doing.
    I think the global strategy is so important that I would 
like it considered as an annex to my written statement and 
incorporated in the hearing record if possible.
    Chairman Tom Davis. Without objection, it will be.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T5914.087
    
    [GRAPHIC] [TIFF OMITTED] T5914.088
    
    [GRAPHIC] [TIFF OMITTED] T5914.089
    
    [GRAPHIC] [TIFF OMITTED] T5914.090
    
    [GRAPHIC] [TIFF OMITTED] T5914.091
    
    [GRAPHIC] [TIFF OMITTED] T5914.092
    
    [GRAPHIC] [TIFF OMITTED] T5914.093
    
    [GRAPHIC] [TIFF OMITTED] T5914.094
    
    [GRAPHIC] [TIFF OMITTED] T5914.095
    
    [GRAPHIC] [TIFF OMITTED] T5914.096
    
    [GRAPHIC] [TIFF OMITTED] T5914.097
    
    [GRAPHIC] [TIFF OMITTED] T5914.098
    
    [GRAPHIC] [TIFF OMITTED] T5914.099
    
    [GRAPHIC] [TIFF OMITTED] T5914.100
    
    [GRAPHIC] [TIFF OMITTED] T5914.101
    
    [GRAPHIC] [TIFF OMITTED] T5914.102
    
    [GRAPHIC] [TIFF OMITTED] T5914.103
    
    [GRAPHIC] [TIFF OMITTED] T5914.104
    
    [GRAPHIC] [TIFF OMITTED] T5914.105
    
    [GRAPHIC] [TIFF OMITTED] T5914.106
    
    Mr. Silverglade. Not surprisingly, the WHO calls for 
educational programs. That is no surprise, but in addition, the 
WHO states that food advertising affects food choices and 
influences dietary habits and that messages that encourage 
unhealthy dietary practices should be discouraged. We, 
therefore, request Congress hold hearings on ways to protect 
consumers, especially children, and reduce the prevalence of 
advertising of less healthful foods.
    The WHO calls for an examination of food and agriculture 
policies for their potential health effects on the food supply. 
In response, for example, USDA could develop policies to reduce 
the average saturated fat content of beef, pork and dairy 
products instead of being mandated by Congress to run 
promotional campaigns for the current product lines.
    The WHO's global strategy recommends that governments adopt 
policies that support healthy diets at school and limit the 
availability of products high in salt, sugar and fat in 
schools. Congress should take a look at the competitive foods 
sold in schools that compete with the school lunch program and 
give USDA the authority it needs to take the measures 
recommended by the WHO.
    Perhaps most controversial, the WHO report states that 
prices influence consumption choices and that public policies 
can influence prices through taxation, subsidies or direct 
pricing in ways that encourage healthy eating and physical 
activity. The WHO noted that some countries successfully use 
fiscal measures including taxes to influence the availability 
and access to a consumption of various foods.
    No one is calling for a Twinkie tax. My organization has 
called for a 1 cent tax on each can of soft drinks sold, that 
could hardly be called regressive and certainly would not have 
an effect on low income consumers but it would raise hundreds 
of millions of dollars for nutrition education campaigns we all 
agree are necessary. In fact, more than a dozen States in the 
United States already tax soft drinks. It is not a radical 
proposition.
    The gist of the World Health Organization's strategy is 
that Government must take a proactive role and not merely act 
as a passive information provider. Neither I nor anyone in my 
organization is advocating that Government regulate what 
consumers eat, but Government must regulate business practices 
that create hostile food environment.
    In sum, the blueprint has been offered to us by the World 
Health Organization. I am glad that the administration has 
supported it. It is now time that they take steps to implement 
it. So far the Small Steps Program by the Department of Health 
and Human Services which includes such recommendations to 
consumers as to ask their doctor about taking a multivitamin 
supplement, to running errands and to drink lite beer--if they 
drink beer--instead of regular beer really doesn't pass the 
laugh test.
    There is legislation pending in Congress that would 
implement some of the WHO's recommendations and we urge this 
committee to take a serious look at those bills.
    Thank you.
    [The prepared statement of Mr. Silverglade follows:]

    [GRAPHIC] [TIFF OMITTED] T5914.107
    
    [GRAPHIC] [TIFF OMITTED] T5914.108
    
    [GRAPHIC] [TIFF OMITTED] T5914.109
    
    [GRAPHIC] [TIFF OMITTED] T5914.110
    
    [GRAPHIC] [TIFF OMITTED] T5914.111
    
    [GRAPHIC] [TIFF OMITTED] T5914.112
    
    [GRAPHIC] [TIFF OMITTED] T5914.113
    
    [GRAPHIC] [TIFF OMITTED] T5914.114
    
    Chairman Tom Davis. Thank you very much. Thank all of you.
    I am going to go to questions. We have a couple of votes 
and instead of going over and trying to come back, I want to 
try to get through.
    Dr. Agatston, just explain to me briefly the difference 
between good carbohydrates and bad carbohydrates and how they 
affect the body?
    Dr. Agatston. We have evolved for millions of years as 
hunter gathers and what we gathered was a great variety of 
vegetables and whole fruits, very nutrient rich. Early 
agriculture was whole grains, slowly digested. Those are 
basically the good carbs. We can describe them as nutrient 
rich, high fiber is low on the glycemic index.
    When the national recommendations came for low fat, we 
didn't have understanding of those concepts.
    Chairman Tom Davis. They didn't take into account the 
differences?
    Dr. Agatston. Yes, but the science really wasn't there and 
so what the food industry produced was all the great tasting, 
zero cholesterol, zero fat processed goodies, big swings in 
blood sugar, obesity and the timing coincides with our obesity 
epidemic.
    Chairman Tom Davis. Dr. Anderson, would you concur with 
that?
    Dr. Anderson. I think you have to be careful about 
simplistic categorization of good and bad.
    Chairman Tom Davis. That was my categorization.
    Dr. Anderson. The point is that even in my own studies, 
rapid release carbohydrates may be perfectly appropriate if you 
want a satiety effect, short term, immediately. You feel 
better, you are hungry. The question is why do people eat too 
much of anything, including the rapid release carbohydrates as 
well as you can over eat on a high fat, high other type of 
carbohydrate as well. I think there are benefits to all forms 
of carbohydrates. An athlete at a certain time will need a 
rapid release, you don't want a slow release under those 
circumstances. Why don't people make the choices appropriate to 
their circumstances and empowering people to understand that 
and make those choices, I believe is important.
    Chairman Tom Davis. Dr. Agatston, again, in your book you 
disparage the Heart Association's high carbohydrate, low fat 
eating pattern that is intended to prevent heart disease. Can 
you elaborate on that?
    Dr. Agatston. The actual studies of low fat, high carb, 
when the Heart Association came out with those recommendations, 
they did not do a large prospective study because of the 
expense. They made the decision on the best available evidence 
and long term diet studies are every expensive and very 
difficult to do. The new Heart Association guidelines are much 
better than the ones we talked about in the book. They 
acknowledge whole grains and what I call the good 
carbohydrates. I agree there are times when you want fast 
release carbohydrates, but for the majority of the population 
in most situations, it has been a disaster.
    Chairman Tom Davis. Professor Anderson, your colleague, 
Professor David Jenkins, developed the glycemic index concept 
something like 30 years ago. As the Government reexamines many 
aspects of national dietary policy, what do we need to keep in 
mind about glycemic index?
    Dr. Anderson. It is premature to put it into a public 
health mode and please make a distinction between diets that 
are geared for the South Beach or the Atkins Diet or whatever 
it might be, not criticizing them, but they are a diet aimed at 
weight loss and not aimed at prevention. We have to think about 
prevention.
    Low glycemic index diet will assist in the control of blood 
glucose excursions and are appropriate for a diabetic but the 
question that we have is where do these changes in diet 
potentially apply for the prevention of disease? Also, you have 
to remember the food guide and the dietary guidance that we 
give is aimed at making sure people get a nutrient adequate 
diet as well as select the right foods to prevent chronic 
disease. So it has to get both across. That is where we are 
failing, in that educational program.
    Dr. Agatston. Now we are looking at over the age of 40 of 
40 percent prevalence of pre-diabetes and obesity, so what we 
are talking about, lower glycemic foods and there is a wealth 
of information on the effect on blood sugar, pre-diabetes and 
diabetes, we are talking about a large percent of the 
population. There are relatively few people who have chosen the 
right parents and can eat anything and get away with it but we 
are really talking about I think a rather big percentage of the 
population.
    Chairman Tom Davis. Dr. Finn.
    Dr. Finn. I have been in the field a long time. I have been 
in the field of dietetics a long time and our dieticians that 
are representative of the Dietetic Association, 70,000 of them, 
battled back and forth and have for many, many years about what 
is the best way to help people or to help patients that have 
disease. I think the consensus is pretty much around the idea 
that we are not going to come out with one way but some people 
do better on a South Beach Diet for prevention, others do 
better on something that might be higher in protein and we are 
coming full circle to say, it is based pretty much on where 
that individual is. It is about calories and how we balance 
those and help people really develop a healthy lifestyle that 
is permanent. Losing weight isn't the problem, keeping it off 
is the problem.
    Chairman Tom Davis. So you don't think Government should 
advocate a target diet for all people? We need to give them the 
information.
    Dr. Finn. I think, as Dr. Anderson said, we have to inform 
people and I think we have to do everything we can as 
professionals to empower people to make those choices and that 
comes from all sectors of society and Government is a piece of 
that.
    Chairman Tom Davis. Thank you.
    Mr. Silverglade, twice in your testimony you criticized the 
schools for serving 2 percent milk or whole milk which is I 
guess only 3.5 percent fat. Because of the satiating nature of 
milk based on its protein fat ratio, do you have evidence that 
the children are gaining weight from drinking milk?
    Mr. Silverglade. All I could say is that the American 
Pediatric Association recommends that children older than 2 
years of age drink low fat or skim milk and there is a 
consensus recommendation among public health professionals in 
the United States, medical professionals, that children drink 
low fat or skim dairy products that provide all the vitamins 
and minerals that whole milk provides without the unnecessary 
fat, calories and saturated fat.
    Chairman Tom Davis. CSPI has a boatload of recommendations 
about eating and what you shouldn't eat but through the 1980's, 
they waged a campaign to force fast food companies to stop 
using natural and tropical oils for frying and instead switch 
to vegetable oil. I am not sure in retrospect, did they stand 
by that or did they have a correction in that area?
    Mr. Silverglade. I think you raise a good point. We did 
urge the fast food industry to stop the use of tropical oils 
such as coconut oil and palm oil that are more highly saturated 
in fat than lard or beef fat. What we didn't know at that time 
is they were going to move to vegetable oils and then 
hydrogenate them which essentially thickened them to make them 
work like lard or beef fat. We didn't know that. It was 
unfortunate but those are the steps they took to respond to our 
campaign to drop the use of tropical oils. Now we know that 
these hydrogenated oils are high in trans fatty acids and we 
are urging the fast food industry to come up with safer 
ingredients to use. French fries can be fried many ways and in 
fact in Europe, the European Union, McDonald's has stopped the 
use of oils that are high in trans fatty acids. Why don't they 
stop the use of them here in this country?
    Chairman Tom Davis. A lot of this is market driven now. If 
you go into restaurants around the country, you go to 
McDonald's around the world and they are giving people what 
they want. You have the bunless burgers in a lot of places as 
you walk in now, you have a kosher McDonald's, I have been to 
it in Tel Aviv, you have a meatless McDonald's in India, but 
consumers drive a lot of this as well. South Beach and Atkins 
have revolutionized what a lot of restaurants are offering.
    I would love to spend the afternoon but we have votes. Your 
entire testimony is in the record. I can't thank you enough for 
being with us and sharing this. As we digest it through the 
committee and make our reports, I want to reserve the right to 
get back to you because I think what you all have contributed 
is very, very important to us as we formulate policy at this 
level. Thank you all for being with us. I will let you go and 
we will adjourn the hearing.
    [Whereupon, at 1:37 p.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
    [The prepared statement of Hon. Elijah E. Cummings and 
additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T5914.115

[GRAPHIC] [TIFF OMITTED] T5914.116

[GRAPHIC] [TIFF OMITTED] T5914.120

[GRAPHIC] [TIFF OMITTED] T5914.121

[GRAPHIC] [TIFF OMITTED] T5914.117

[GRAPHIC] [TIFF OMITTED] T5914.118

[GRAPHIC] [TIFF OMITTED] T5914.119

[GRAPHIC] [TIFF OMITTED] T5914.122

[GRAPHIC] [TIFF OMITTED] T5914.123

[GRAPHIC] [TIFF OMITTED] T5914.124

[GRAPHIC] [TIFF OMITTED] T5914.125

[GRAPHIC] [TIFF OMITTED] T5914.126

[GRAPHIC] [TIFF OMITTED] T5914.127

                                 <all>

</pre></body></html>
